i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Arizona Supreme Court
(February 25, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Decision in the Arizona Court of Appeals
Division One
(March 13, 2018). . . . . . . . . . . . . . . . . App. 35
Appendix C Under Advisement Ruling in the
Superior Court of Arizona Maricopa County
(June 17, 2014) . . . . . . . . . . . . . . . . . . App. 68
Appendix D Arizona Revised Statutes
Ariz. Rev. Stat. § 5-801 (1), (4) . . App. 77
Ariz. Rev. Stat. § 5-802(A), (C) . App. 77
Ariz. Rev. Stat. § 5-807(A) . . . . . App. 78
Ariz. Rev. Stat. § 5-808(A),
(B)(1)(a). . . . . . . . . . . . . . . . . . App. 78
Ariz. Rev. Stat. § 5-809(A) . . . . . App. 79
Ariz. Rev. Stat. § 5-815(A) . . . . . App. 79
Ariz. Rev. Stat. § 5-839 . . . . . . . . App. 80

App. 1

APPENDIX A
IN THE
SUPREME COURT OF THE STATE OF ARIZONA
No. CV-18-0080-PR
[Filed February 25, 2019]
_______________________________________________

)
)
SABAN RENT-A-CAR LLC, ET AL.,
Plaintiffs/Appellees/Cross-Appellants,
)
)
v.
)
)
ARIZONA DEPARTMENT OF REVENUE,
)
Defendant/Appellant/Appellee/Cross-Appellee,
)
)
TOURISM AND SPORTS AUTHORITY,
)
Defendant-in-Intervention/Appellant/Cross-Appellee. )
_______________________________________________ )
Appeal from the Arizona Tax Court
The Honorable Dean M. Fink, Judge
The Honorable Christopher T. Whitten, Judge
No. TX2010-001089
REVERSED AND REMANDED
Opinion of the Court of Appeals, Division One
244 Ariz. 293 (App. 2018)
AFFIRMED

App. 2
COUNSEL:
Shawn K. Aiken (argued), Shawn Aiken PLLC, Phoenix;
Gregory D. Hanley, Kickham Hanley PLLC, Royal Oaks,
MI; Taylor C. Young, Robert A. Mandel, Mandel Young
PLC, Phoenix, Attorneys for Saban Rent-a-Car LLC
Mark Brnovich, Arizona Attorney General, Phoenix,
Kimberly Cygan, Jerry A. Fries, Assistant Attorneys
General, Phoenix; Thomas L. Hudson (argued), Eric M.
Fraser, Osborn Maledon, P.A., Phoenix, Attorneys for
Arizona Department of Revenue
Timothy Berg (argued), Janice Procter-Murphy, Emily
Ward, Fennemore Craig, P.C., Phoenix; and Scot L. Claus,
Vail C. Cloar, Dickinson Wright PLLC, Phoenix, Attorneys
for Tourism and Sports Authority
Lawrence A. Kasten, Lewis Roca Rothgerber Christie
LLP, Phoenix, Attorneys for Amicus Curiae John
Halikowski, Director, Arizona Department of
Transportation
Michael R. King, Cameron C. Artigue, Christopher L.
Hering, Gammage & Burnham, PLC, Phoenix, Attorneys
for Amici Curiae Convention and Visitors Bureaus
Barbara LaWall, Pima County Attorney, Regina L.
Nassen, Deputy County Attorney, Tucson, Attorneys for
Amici Curiae Pima County and the Pima County Stadium
District
Paul F. Eckstein, Thomas D. Ryerson, Perkins Coie LLP,
Phoenix, Attorneys for Amicus Curiae City of Phoenix
Michael K. Kennedy, Mark C. Dangerfield, Gallagher &
Kennedy, P.A., Phoenix, Attorneys for Amici Curiae The

App. 3
Arizona Chamber of Commerce & Industry and The
Greater Phoenix Chamber of Commerce
JUSTICE TIMMER authored the opinion of the Court, in
which CHIEF JUSTICE BALES, VICE CHIEF
JUSTICE BRUTINEL, and JUSTICES PELANDER,
GOULD, and LOPEZ joined. JUSTICE BOLICK
authored an opinion concurring in part and dissenting in
part.
JUSTICE TIMMER, opinion of the Court:
¶1
Maricopa County imposes a surcharge on car rental
agencies to fund a stadium and other sports and
tourism-related ventures. The issue here is whether this
surcharge violates the dormant Commerce Clause implied
by Article I, Section 8, Clause 3 of the United States
Constitution or the anti-diversion provision, article 9,
section 14 of the Arizona Constitution. We hold that it does
not violate either provision.
BACKGROUND
¶2
The legislature created the Arizona Tourism and
Sports Authority (the “AzSTA”) in 2000 to build and
operate a sports stadium, build Major League Baseball
spring training facilities, build youth and amateur sports
and recreation facilities, and promote tourism. See A.R.S.
§§ 5-801(4), -802(A), -807 to -809, -815. AzSTA’s authority
is restricted to counties with populations greater than two
million people, meaning it has only ever operated in
Maricopa County. See § 5-802(A). AzSTA’s construction
projects are funded solely by taxes and surcharges
approved by Maricopa County voters. See § 5-802(C). One
such voter-approved surcharge is at issue here.

App. 4
¶3
Soon after the creation of AzSTA, Maricopa County
voters passed an initiative that levied a surcharge on car
rental companies based on their income derived from
leasing vehicles for less than one year. See A.R.S.
§ 5-839(A)–(C) (authorizing voters to levy the surcharge
and providing its terms). (The initiative also imposed a tax
on hotels. The hotel tax is not at issue here.) The surcharge
is the greater of $2.50 per rental or 3.25% of the company’s
gross proceeds or gross income. § 5-839(B)(1). If the
rental is a “temporary replacement” for a damaged or lost
vehicle, however, the surcharge is a flat $2.50. § 5-839(B)(2).
The state treasurer distributes $2.50 per rental transaction
to the Maricopa County Stadium District, which has
collected a surcharge in this amount since 1991. See
§ 5-839(G)(1); Act of June 25, 1991, ch. 285, § 10, 1991 Ariz.
Sess. Laws 1444, 1451–53 (1st Reg. Sess.) (codified at
A.R.S. § 48-4234). The remaining amount, the difference
between $2.50 per rental transaction and 3.25% of the
company’s gross income or proceeds, is distributed to
AzSTA. § 5-839(G)(2). Although the surcharge is imposed
on car rental companies, they can and do pass its cost on to
their customers.
¶4
Plaintiff Saban Rent-a-Car (“Saban”) rents vehicles
in Maricopa County and has paid the car rental surcharge.
Its customers are primarily local residents. In 2009, after
unsuccessfully seeking a refund from the Arizona
Department of Revenue (“ADOR”), Saban sued ADOR in
the tax court and sought refunds and injunctive relief for all
similarly situated car rental companies. The tax court
certified a class of all individuals or entities that paid the
surcharge from September 2005 through March 2008 and
allowed AzSTA to intervene as a defendant.

App. 5
¶5
As it does here, Saban argued to the tax court that
the surcharge violates both the dormant Commerce Clause
and the anti-diversion provision. On cross-motions for
summary judgment, the court agreed with ADOR and
AzSTA that the surcharge does not violate the dormant
Commerce Clause. It agreed with Saban, however, that the
surcharge violates the anti-diversion provision.
Consequently, the court granted summary judgment for
Saban and ordered ADOR to refund the surcharge
payments to class members. The court also authorized
ADOR to recoup the refund amounts from AzSTA pursuant
to A.R.S. § 42-5029(G).
¶6
Like the tax court, the court of appeals ruled that
the surcharge does not violate the dormant Commerce
Clause. Saban Rent-A-Car LLC v. Ariz. Dep’t of Revenue,
244 Ariz. 293, 296 ¶ 2 (App. 2018). But unlike the tax court,
the court of appeals concluded that the surcharge also does
not violate the anti-diversion provision. Id. It therefore
reversed the tax court’s ruling and remanded for entry of
summary judgment in favor of ADOR and AzSTA. See id.
at 308 ¶ 49.
¶7
We granted review to address these legal issues of
statewide importance. We have jurisdiction pursuant to
article 6, section 5(3) of the Arizona Constitution.
DISCUSSION
I. The Dormant Commerce Clause
¶8
We review the constitutionality of the car rental
surcharge de novo, as a question of law. See Gallardo v.
State, 236 Ariz. 84, 87 ¶ 8 (2014). Likewise, “[w]e review
questions of statutory construction and grants of summary

App. 6
judgment de novo.” BSI Holdings, LLC v. Ariz. Dep’t of
Transp., 244 Ariz. 17, 19 ¶ 9 (2018). We presume that a
statute not involving fundamental constitutional rights or
suspect-classification distinctions is constitutional “and will
uphold it unless it clearly is not.” Cave Creek Unified Sch.
Dist. v. Ducey, 233 Ariz. 1, 5 ¶ 11 (2013).
¶9
The Commerce Clause empowers Congress “[t]o
regulate Commerce . . . among the several States.” U.S.
Const. art. I, § 8, cl. 3. By negative implication, states
cannot unjustifiably discriminate against or erect barriers
to interstate commerce. See Or. Waste Sys., Inc. v. Dep’t of
Envtl. Quality of Or., 511 U.S. 93, 98 (1994). This implied
restraint is known as the “dormant Commerce Clause” and
serves to prevent “economic protectionism[,] that is,
regulatory measures designed to benefit in-state economic
interests by burdening out-of-state competitors.” Dep’t of
Revenue of Ky. v. Davis, 553 U.S. 328, 337–38 (2008); see
also Gen. Motors Corp. v. Tracy, 519 U.S. 278, 299 (1997)
(describing the dormant Commerce Clause’s fundamental
objective as “preserving a national market for competition
undisturbed by preferential advantages conferred by a
State upon its residents or resident competitors”). The
principles developed under the dormant Commerce Clause
to counter economic Balkanization, however, have
respected a degree of local autonomy, as favored by the
Framers. See Davis, 553 U.S. at 338; see also Hunt v.
Wash. State Apple Advert. Comm’n, 432 U.S. 333, 350
(1977) (recognizing that “in the absence of conflicting
legislation by Congress, there is a residuum of power in the
state to make laws governing matters of local concern
which nevertheless in some measure affect interstate
commerce or even, to some extent, regulate it” (internal
quotation marks omitted)).

App. 7
¶10
To determine if a law violates the dormant
Commerce Clause, courts initially ask whether the law
“regulates evenhandedly with only incidental effects on
interstate commerce, or discriminates against interstate
commerce.” Or. Waste Sys., 511 U.S. at 99 (internal
quotation marks omitted). If a law is discriminatory, it will
survive only if its proponents “show that it advances a
legitimate local purpose that cannot be adequately served
by reasonable nondiscriminatory alternatives.” Id. at
100–01 (internal interlineations and quotation marks
omitted). Courts have sometimes noted that such scrutiny
renders a law “virtually per se invalid.” See id. at 99. If the
challenged law is non-discriminatory but incidentally
affects interstate commerce, a balancing test is used, and
the law will be upheld unless “the burden imposed on such
commerce is clearly excessive in relation to the putative
local benefits.” Pike v. Bruce Church, Inc., 397 U.S. 137,
142 (1970).
¶11
Saban argues the car rental surcharge is
discriminatory and thus subject to strict scrutiny review. A
“discriminatory” tax is one that is “facially discriminatory,
has a discriminatory intent, or has the effect of unduly
burdening interstate commerce.” Amerada Hess Corp. v.
Dir., Div. of Taxation, N.J. Dep’t of the Treasury, 490 U.S.
66, 75 (1989). Saban abandons prior assertions that the
surcharge is facially discriminatory and unduly burdens
interstate commerce, see Saban, 244 Ariz. at 303 ¶ 30, 304
¶ 32, and solely argues the surcharge is “invalid because it
was motivated by discriminatory intent, that is, forcing
out-of-state visitors [to] pay a special tax that residents are
shielded from.” ADOR and AzSTA counter that the
surcharge was not enacted with a discriminatory intent but,

App. 8
even if it was, intent alone is an insufficient reason to
invalidate the surcharge.
¶12
The car rental surcharge was not enacted with a
discriminatory intent, as that term is used in Commerce
Clause jurisprudence. Discrimination “means differential
treatment of in-state and out-of-state economic interests
that benefits the former and burdens the latter.” Or. Waste
Sys., 511 U.S. at 99. Nothing in the language of the
surcharge or in the publicity pamphlet for the initiative
enacting the surcharge suggests an intent to treat in-state
and out-of-state interests differently or engage in the type
of “economic protectionism” at odds with the Commerce
Clause. Indeed, the surcharge applies equally to resident
and non-resident car rental agencies operating in Maricopa
County and is calculated and imposed without regard to
their customers’ residencies.
¶13
Saban nevertheless argues that discriminatory
intent exists because statements in the initiative’s publicity
pamphlet suggest voters targeted non-resident visitors,
who purportedly rent most vehicles offered by car rental
agencies, to pay the lion’s share of the surcharges. But even
if true, this does not evidence an intent that out-of-state
visitors be treated any differently from residents, as
required to be discriminatory. See id. The fact that visitors
as a group pay most of the surcharges collected by car
rental agencies is not “discriminatory.”
¶14
The Supreme Court’s decision in Commonwealth
Edison Co. v. Montana, 453 U.S. 609 (1991), is illuminative.
There, the Court concluded that Montana’s tax on the sale
of coal did not violate the dormant Commerce Clause even
though most of the tax burden was borne by out-of-state
consumers. Id. at 618, 636. The Court expressed misgivings

App. 9
about judging the validity of a state tax on “its ‘exportation’
of the tax burden out of State,” as the challengers there
urged. Id. at 618. It noted that for purposes of promoting
free trade under the Commerce Clause, state borders are
“essentially irrelevant” and reasoned that “invalidat[ing]
the Montana tax solely because most of Montana’s coal is
shipped across the very state borders that ordinarily are to
be considered irrelevant would require a significant and, in
our view, unwarranted departure from the rationale of our
prior discrimination cases.” Id. at 618–19. The Court also
disagreed with the challengers’ argument that out-of-state
consumers should be protected from discriminatory tax
treatment, pointing out “there is no real discrimination in
this case; the tax burden is borne according to the amount
of coal consumed and not according to any distinction
between in-state and out-of-state consumers.” Id. at 619.
¶15
Although Commonwealth Edison addressed the
purported discriminatory effect of Montana’s coal tax, the
Court’s reasoning also reveals the meaning of
“discriminatory intent” under the dormant Commerce
Clause. Just as a tax that does not differentiate between
interstate and intrastate commerce does not have a
“discriminatory effect” when the tax burden is borne
primarily by out-of-state consumers, those who enacted the
tax intending that consequence did not do so with a
“discriminatory intent.” Cf. Bacchus Imports, Ltd. v. Dias,
468 U.S. 263, 270–71 (1984) (stating that the Hawaii
legislature acted with discriminatory intent by exempting
only certain Hawaiian-made alcohol from alcohol tax to
encourage and promote Hawaiian industry). Concluding
otherwise would mean the validity of a tax would turn on
serendipity: one state’s tax that happens to be
disproportionately paid by non-residents would be valid, see

App. 10
Commonwealth Edison, 453 U.S. at 618–19, while the same
tax in another state would be invalid only because its
enactors intended that result. Because the surcharge here,
like the Montana coal tax, is imposed even-handedly and
does not distinguish between in-state and out-of-state car
rental agencies or consumers, any intent by voters that
out-of-state visitors ultimately pay most of the surcharge
was not “discriminatory.”
¶16
Saban argues that the car rental surcharge is like
the Maine tax scheme that the Supreme Court invalidated
under the dormant Commerce Clause in Camps
Newfound/Owatonna, Inc. v. Town of Harrison, 520 U.S.
564 (1997). Maine provided a complete property and
personal tax exemption for charitable organizations
incorporated in the state but only if they did not operate
principally for the benefit of non-residents. Id. at 568. As a
result, a church camp catering mostly to out-of-state
campers was required to pay taxes while organizations
operating camps attracting mostly Maine residents were
exempt. Id. at 568–69. The Court found the Maine tax
scheme facially discriminatory because it expressly
“singl[ed] out camps that serve mostly in-staters for
beneficial tax treatment, and penaliz[ed] those camps that
do a principally interstate business.” Id. at 575–76. It also
analogized the discriminatory exemption to prohibited
special fee assessments charged nonresidents for use of
local services, noting “Maine’s facially discriminatory tax
scheme falls by design in a predictably disproportionate
way” on non-residents and has the same “pernicious effect
on interstate commerce.” Id. at 578–80; see also id. at 579
n.13 (stating “the [Maine] tax scheme functions by design
and on its face to burden out-of-state users
disproportionately”).

App. 11
¶17
We disagree with Saban that the car rental
surcharge is tantamount to Maine’s scheme to
disproportionately burden non-residents who used services
provided by in-state charitable organizations. The
disproportionate burden in Camps Newfound/Owatonna
referred to the costs placed only on non-residents for using
in-state services. See id. at 578–79 (explaining that the
discriminatory exemption is effectively no different from
imposing a penalty on activity). It did not refer to the
disparate impact on non-residents that stems solely from
the fact that they consume more of the uniformly taxed
good or service than in-state consumers. See id. at 580 n.13
(distinguishing Commonwealth Edison because although
non-residents bore most of the Montana coal tax burden by
virtue of buying most of the coal, the tax was based on
consumption and made no distinctions between resident
and non-resident consumers). Like the tax in
Commonwealth Edison, and unlike the exemption in
Camps Newfound/Owatonna, the car rental surcharge is
imposed uniformly on all car rental agencies, and ultimately
on their customers, regardless of the agencies’ or
customers’ residency status.
¶18
Saban also argues that voters acted with
discriminatory intent by “exempting” temporary
replacement vehicles “as a proxy for an overt exemption for
the ‘ordinary Arizona citizen.’” See § 5-839(B)(2). We
disagree. First, temporary replacement vehicles are not
exempted from the surcharge. Rather, the surcharge is
calculated at $2.50 per vehicle rather than the greater of
$2.50 per rental or 3.25% of the company’s gross proceeds
or gross income, as the surcharge is calculated for other
rentals. See § 5-839(B)(1)–(2). Second, nothing suggests car
rental agencies pass through more than $2.50 per rental to

App. 12
ordinary renters, thereby suggesting that those renting
temporary replacement vehicles are treated more
favorably. Indeed, according to its owner, Saban, like other
car rental agencies, charges the same surcharge rate to all
its customers. Third, the temporary replacement vehicle
calculation applies whether the renter is a resident or a
non-resident.
And because numerous non-residents
temporarily relocate to Arizona during the year, it is likely
that many non-residents rent temporary replacement
vehicles.
¶19
In sum, the voters did not enact the car rental
surcharge with a discriminatory intent because they did not
intend to treat in-state and out-of-state economic interests
differently. As a result, the surcharge does not trigger
strict scrutiny review. Because Saban does not assert that
the tax court or court of appeals misapplied the Pike
balancing test, we do not address that issue. And
considering our decision, we do not resolve the extent to
which discriminatory intent alone can invalidate a tax
under the dormant Commerce Clause. We note, however,
that as Saban acknowledged at oral argument, a tax must
burden interstate commerce in some way to be invalidated
under that clause. Cf. Or. Waste Sys., 511 U.S. at 98
(describing dormant Commerce Clause as addressing
discrimination against or erection of barriers to interstate
commerce).
II. The Anti-Diversion Provision
¶20
The anti-diversion provision, article 9, section 14 of
the Arizona Constitution, provides in relevant part as
follows:

App. 13
No moneys derived from fees, excises, or license
taxes relating to registration, operation, or use of
vehicles on the public highways or streets or to fuels
or any other energy source used for the propulsion
of vehicles on the public highways or streets, shall
be expended for other than highway and street
purposes.
The parties agree the car rental surcharge is an excise and
is unrelated to vehicle registration. The only issue,
therefore, is whether the surcharge “relat[es] to [the] . . .
operation[] or use of vehicles,” which determines whether
surcharge revenues must be used for road-related
purposes. Resolution of this issue turns on the meaning of
“relating to.”
¶21
Our primary goal in interpreting the anti-diversion
provision is to effectuate the electorate’s intent in adopting
it. See Jett v. City of Tucson, 180 Ariz. 115, 119 (1994). If we
can discern the provision’s meaning from its language
alone, we will apply it without further analysis. See id. In
doing so, however, we do not apply “[f]ine semantic or
grammatical distinctions, legalistic doctrine [or] pars[e] . . .
sentences,” as doing so “may lead us to results quite
different from the objectives which the framers intended to
accomplish.” United States v. Superior Court, 144 Ariz.
265, 275–76 (1985). “Constitutions, meant to endure, must
be interpreted with an eye to syntax, history, initial
principle, and extension of fundamental purpose.” Id.; cf.
Heath v. Kiger, 217 Ariz. 492, 495 ¶ 12 (2008) (“[C]ourts
should avoid hypertechnical constructions that frustrate
legislative intent.” (quoting State v. Estrada, 201 Ariz. 247,
251 ¶ 19 (2001)).

App. 14
¶22 Saban argues that a fee, excise, or tax “relating to”
the use or operation of vehicles plainly means one that is
“connected to” driving vehicles on Arizona roads. And
because the surcharge is passed through to car rental
customers and “[c]ustomers rent cars to use them” on
Arizona roads, Saban contends the surcharge falls within
the anti-diversion provision. But Saban, somewhat
anomalously, concedes that “‘related to’ could have an
almost unlimited reach if construed too broadly” and thus
must be limited. We accept this concession. As the court of
appeals explained, interpreting “relating to” as having any
connection to the use or operation of vehicles on the pubic
highways would encompass revenues that voters clearly did
not intend to be covered, including those from “retail sales
or business privilege taxes on car sales, tire sales, car
leases and car repairs.” See Saban, 244 Ariz. at 298 ¶ 10,
301 ¶ 23. Because we cannot discern the meaning of
“relating to” from the language of the anti-diversion
provision alone, we consider its text in conjunction with the
history and purpose of the provision.
¶23
The anti-diversion provision’s origins are rooted in
the early proliferation of automobiles in the United States,
which sparked a need for a more extensive road network.
See Chad D. Emerson, All Sprawled Out: How the Federal
Regulatory System Has Driven Unsustainable Growth, 75
Tenn. L. Rev. 411, 437–38 (2008). Although state and local
governments had traditionally borne the costs of building,
improving, and maintaining roads, Congress passed the
Federal Aid Road Act in 1916 to provide funding
assistance. See id. at 432–33, 438. Even so, states, including
Arizona, soon looked to new revenue sources, like gasoline
taxes, to pay increasing costs rather than raising existing
taxes. See id. at 438 (stating, for example, that by the end

App. 15
of the 1920s, every state had adopted a gasoline tax); Texas
Co. v. State, 31 Ariz. 485, 487 (1927) (addressing Arizona’s
gasoline tax passed in 1921).
¶24
Congress passed the Hayden-Cartwright
Amendment in 1934, which, in part, amended the Federal
Aid Road Act by reducing federal aid to states that had
imposed taxes on motor-vehicle transportation to fund
roads before 1935 but thereafter diverted those tax
revenues to non-road-related purposes. See HaydenCartwright Amendment of 1934, Pub. L. No. 73-393, § 12,
48 Stat. 993, 995 (1934). Specifically, the Amendment
provided:
Since it is unfair and unjust to tax motor-vehicle
transportation unless the proceeds of such taxation
are applied to the construction, improvement, or
maintenance of highways, after June 30, 1935,
Federal aid for highway construction shall be
extended only to those States that use at least the
amounts now provided by law for such purposes in
each State from State motor vehicle registration
fees, licenses, gasoline taxes, and other special taxes
on motor-vehicle owners and operators of all kinds
for the construction, improvement, and
maintenance of highways and administrative
expenses in connection therewith . . . .
Id. Rather than risk reduced federal funding by failing to
devote road-user tax revenues to road uses at less than
1934 levels, “all states have, by custom, statute or
constitution, pledged highway user taxes to highway
construction.” Jerry L. Mashaw, The Legal Structure of
Frustration: Alternative Strategies for Public Choice

App. 16
Concerning Federally Aided Highway Construction, 122
U. Pa. L. Rev. 1, 8 (1973).
¶25
Arizona reacted to the Hayden-Cartwright
Amendment and ensured stable roadway funding by
passing the “Better Roads Amendment” referendum in
1952, which added the anti-diversion provision to the state
constitution. The publicity pamphlet mailed to all voters
contained a “pro” argument from the Arizona Better Roads
Committee’s chair, who described the provision’s purpose
as “insur[ing] the expenditure of all revenues derived from
road users to road uses only.” See Ariz. Sec’y of State, 1952
Publicity Pamphlet 3 (1952), http://azmemory.azlibrary.gov/
digital/collection/statepubs/id/10641 (hereinafter
“Pamphlet”); Ariz. Early Childhood Dev. & Health Bd. v.
Brewer, 221 Ariz. 467, 471 ¶ 14 (2009) (stating publicity
pamphlets can be examined to ascertain electorate’s intent
in passing a measure). He quoted the Hayden-Cartwright
Amendment’s rationale that diverting such tax revenues
would be “unfair and unjust,” see supra ¶ 24, and noted the
importance of not “jeopardiz[ing] federal aid by allowing
any diversion of road user taxes to other than road
purposes.” Pamphlet, supra, at 4–5. (The Pamphlet did not
contain other arguments.)
¶26
Saban argues that the text, purpose, and history of
the anti-diversion provision demonstrate it applies to tax
revenues “connected to” use or operation of vehicles on
roads, as limited by an historically grounded “benefits
theory of taxation.” Specifically, the provision applies only
to taxes and fees specially imposed on “those who impose
wear and tear or otherwise benefit from using the roads.”
¶27
ADOR and AzSTA argue that Saban’s “benefits
theory” limitation is illusory as it would give “relating to”

App. 17
an unlimited application that voters did not intend. They
urge the court of appeals’ narrower view that “relating
to . . . the . . . use[] or operation of vehicles” refers to “a tax
or fee that is a prerequisite to, or triggered by, the legal
operation or use of a vehicle on a public thoroughfare.” See
Saban, 244 Ariz. at 302 ¶ 25. We agree with the court of
appeals’ interpretation.
¶28
First, the provision’s text supports a narrower
interpretation of the disputed phrase than one meaning
“connected to” or benefitting from road usage. The
provision applies to two categories of taxes: (a) those
“relating to” the “registration, operation, or use of
vehicles,” and (b) those imposed on fuels and other energy
sources used to propel vehicles. See Ariz. Const. art. 9, § 14.
Registration fees and fuel taxes are “connected to” the use
or operation of vehicles. Owners register vehicles to use the
roads. And fuel sellers indisputably benefit from their
customers’ use and operation of vehicles. The explicit
mention of registration fees and fuel taxes therefore
suggests that tax revenues “relating to . . . the . . .
operation, or use of vehicles” encompass a more finite tax
class than revenues derived from those with a “connection
to” road usage or who benefit from it. Otherwise, as the
court of appeals noted, the references to registration fees
and fuel taxes would be superfluous. See Saban, 244 Ariz.
at 298 ¶ 13; see also Fields v. Elected Officials’ Ret. Plan,
234 Ariz. 214, 218 ¶ 16 (2014) (rejecting proposed
interpretation of constitution that would render language
meaningless). Interpreting “relating to” as the court of
appeals did gives meaning to all terms.
¶29
We are unpersuaded by Saban’s assertion that the
legislature explicitly mentioned registration fees and fuel

App. 18
taxes in the Better Roads Amendment referendum simply
to remove any doubt they were covered. We presume the
legislature avoids redundancy in favor of concision and see
no reason to conclude otherwise here. See City of Phx. v.
Glenayre Elecs., Inc., 242 Ariz. 139, 147 ¶ 32 (2017). We
also disagree with Saban that the legislature demonstrated
a penchant for redundancy by referring to revenues from
both the “operation” and “use” of vehicles. They are
different. The former refers to fees imposed on drivers
while the latter refers to taxes and fees assessed on
vehicles. See, e.g., A.R.S. §§ 28-3002(A) (setting fees for
driver licenses), -5471(A) (setting vehicle registration fees).
¶30
Second, the anti-diversion provision’s history
supports the court of appeals’ interpretation. The Pamphlet
identified non-fuel-related revenues dedicated to roads as
“registration fees, unladen weight fees on common and
contract motor carriers, and motor carrier taxes based on
gross receipts” that are all “derived from road users.” See
Pamphlet, supra, at 3. All these taxes and fees are
prerequisites for or triggered by the legal use of vehicles on
our roads. None are imposed on businesses, like car rental
agencies, that merely benefit from the existence of roads.
¶31
Notably, the Pamphlet also stated that adopting the
referendum would maintain the status quo as Arizona was
then using all road-user taxes for road uses. Pamphlet,
supra, at 5 (“Arizona is in a particularly favorable position
to adopt [the anti-diversion provision] this year, because it
is not now diverting its road user taxes . . . [and passage]
will entail no change in the source or expenditure of
highway revenues.”). Yet Arizona had imposed transaction
privilege taxes on car rental agencies since 1935 and used
those revenues for general purposes. See Saban, 244 Ariz.

App. 19
at 299 ¶ 15 (relating history of transaction privilege tax on
car rental agencies). This history suggests that neither the
referendum drafter (the legislature) nor voters considered
existing taxes on car rental agencies to be “road user taxes”
or intended to include such taxes within the provision’s
ambit.
¶32
Saban agrees that 1952 voters did not intend that
the anti-diversion provision apply to transaction privilege
taxes on car rental agencies. It nevertheless argues that
the car rental surcharge is distinguishable, likening it to the
license tax Arizona imposed on common and contract motor
carriers of property and passengers in 1952, which the
Pamphlet described as a road-user tax that would be
subject to the provision. See Act of Mar. 18, 1933, ch. 100,
§§ 2, 17, 1933 Sess. Laws 472, 473–74, 481–82 (codified at
Ariz. Ann. Code §§ 66-502, -518 (1939)); Pamphlet, supra,
at 3, 5. Specifically, Saban asserts that, like the motor
carrier license tax, the surcharge is a “special tax” not
imposed generally on all businesses but aimed at “motor
vehicle owners and operators of all kinds” who benefit from
using Arizona roads. According to Saban, and echoing the
Hayden-Cartwright Amendment’s vernacular, it would be
“unfair and unjust” to impose the surcharge on car rental
drivers but divert those revenues from road-related
purposes.
¶33
We disagree that the car rental surcharge is more
like the motor carrier license tax imposed in 1952 than the
1935 transaction privilege tax imposed on car rental
agencies. Payment of the motor carrier license tax was
required to legally use vehicles on our roads. See §§ 2, 17,
1933 Sess. Laws at 473–74, 481–82. In contrast, the
surcharge, like the transaction privilege tax, is imposed on

App. 20
the business of renting vehicles and is not required to be
paid before a rental vehicle can be legally operated on
roads. Instead, car rental agencies pay licensing fees, like
everyone else, to authorize a vehicle’s road usage whether
the operator is an employee or a customer. See A.R.S.
§§ 28-2153(A), -2157 (requiring vehicle registration and
payment of registration fees). And car rental drivers pay
licensing fees to their home states/countries as a condition
for driving on Arizona roads. See A.R.S. §§ 28-3151,
-3158(B) (requiring driver’s license and payment of fee).
Additionally, the surcharge is no more aimed at car rental
customers than was the 1935 transaction privilege tax. Like
the surcharge, the transaction privilege tax could be passed
on to car rental customers, yet the tax was not considered
a road-user tax and did not fall within the provision.
¶34
That the surcharge is a “special tax” not levied
generally on all businesses also fails to distinguish it from
the 1935 transaction privilege tax. When enacted, that tax
applied to a limited number of businesses. See White v.
Moore, 46 Ariz. 48, 54–55 (1935) (describing 1935
transaction privilege tax and noting “the Legislature
thought best not to impose it on . . . all lines of endeavor but
only on . . . certain occupations and businesses”), superseded
by statute as stated in Peterson v. Smith, 92 Ariz. 340, 342
(1962). Car rental agencies fell within a class of public
entertainment and tourist-related businesses, which were
taxed at the highest rate. See id. at 55–56. Regardless of
this “special” treatment, the legislature and voters in 1952
did not consider the tax a road-user tax. Similarly, the antidiversion provision does not apply to the surcharge, which
is part of a taxing plan that imposes a special tax on hotels,
simply because it applies only to car rental agencies.

App. 21
¶35
The court of appeals’ interpretation also aligns with
the Hayden-Cartwright Amendment, which at least
partially drove the Better Roads Amendment. The
Hayden-Cartwright Amendment conditioned full federal
aid on a state continuing to direct revenues from road-user
taxes and fees to road uses. See supra ¶ 24. As explained,
revenues from the 1935 transaction privilege tax on car
rental agencies were never dedicated solely for road
purposes. Likewise, directing surcharge revenues, which
also derive from taxes imposed on the business of renting
vehicles, to non-road purposes does not offend the
Hayden-Cartwright Amendment.
¶36
Finally, we agree with ADOR and AzSTA that
Saban’s “benefits theory” provides no limitation to the term
“relating to.” If the anti-diversion provision applies to the
surcharge, no principled reason exists not to apply it to fees
and taxes levied against car sale dealers, automotive repair
shops, and the like.
¶37
Justice Bolick’s partial dissent accuses us of
embarking on a “circuitous journey” that “rewrite[s]
constitutional text” to “create[] a loophole” for publicly
financed sports stadiums. See infra ¶¶ 41–42, 59. Strong
words. But they are not backed by rejoinders to our
analysis rejecting Saban’s “special tax” argument, see
supra ¶¶ 31–35, despite the fact the dissent adopts Saban’s
view. See infra ¶¶ 49–51 (stating that “a tax is ‘relating to’
if it is specially directed at the operation or use of vehicles
on public highways,” and concluding that a surcharge
imposed on car rental agencies is such a tax).
¶38
The dissent’s effort to ascertain the voters’ intent in
enacting the anti-diversion provision by parsing language
from the Hayden-Cartwright Amendment is unpersuasive.

App. 22
See infra ¶¶ 45–49. Neither the provision nor the Pamphlet
recited (or even mentioned) the language seized on by the
dissent, meaning that language almost certainly had no
bearing on voters’ intent. Also, the provision was not
enacted to comply with the Hayden-Cartwright
Amendment and obtain federal funding. See infra ¶ 49
(“Arizona voters implemented the Hayden-Cartwright
Amendment through the anti-diversion clause.”). Arizona
had already been receiving federal funding for roads at the
time the provision was adopted in 1952. See Pamphlet,
supra, at 5. Necessarily, therefore, the state had already
complied with the Hayden-Cartwright Amendment by
devoting road-user taxes—which did not include the
“special” transaction privilege tax placed on car rental
agencies—to road uses. Proponents of the provision were
driven by the desire to ensure that Arizona continued to
devote these tax revenues to road uses. See Pamphlet,
supra, at 5 (“Public policy in Arizona has consistently
opposed diversion [of road user taxes to non-road
purposes], although there have been constant threats to
highway funds in bills introduced from time to time in the
legislature.”).
¶39
In sum, “fees, excises, or license taxes relating to . . .
the . . . operation, or use of vehicles” are ones imposed as a
prerequisite to, or triggered by, the legal operation or use
of a vehicle on a public road. The surcharge falls outside
this definition and therefore does not violate the
anti-diversion provision.
CONCLUSION
¶40
For the foregoing reasons, we affirm the court of
appeals’ opinion. We reverse the tax court’s judgment in
favor of Saban and remand with directions to enter

App. 23
judgment in favor of ADOR and AzSTA and for any further
required proceedings consistent with our opinion. Finally,
we vacate the tax court’s refund order.
BOLICK, J., Concurring in Part and
Dissenting in Part.
BOLICK, J., concurring in part and dissenting in part.
¶41
The majority today concludes that our constitution’s
anti-diversion clause, which requires that revenues derived
from taxes relating to the operation of motor vehicles must
be allocated for public highways, does not apply to a tax
relating to the operation of motor vehicles. Because I
believe that the best route to a constitutional destination is
usually a straight line, I must forsake the majority’s
circuitous journey. I therefore respectfully dissent from
Part II of the majority opinion, while joining the Court’s
Commerce Clause analysis with some reservations.
Anti-diversion Clause
¶42
If we asked a dozen random non-lawyers whether a
rental vehicle tax is related to the operation or use of
vehicles on the public highways or streets, chances are
excellent that unless they perceived a trick question based
on the obvious answer, all twelve would say “of course!”
While I do not suggest that a term’s obvious meaning is
always the legal meaning, when our reading diverges
markedly from a provision’s ordinary meaning, we should
have an exceedingly good reason for reaching that
conclusion. Even then, we should hew as closely as possible
to the text’s plain meaning to help resist the temptation to
exceed our constitutional boundaries. Even public
objectives of the highest order, including (apparently) the

App. 24
building of publicly financed stadiums, do not license us to
rewrite constitutional text.
¶43
We must presume that the amendment’s framers
consciously and intentionally chose the words they used.
See Rumery v. Baier, 231 Ariz. 275, 278 ¶ 15 (2013). Our
duty is to give effect to those words. See id. In giving effect
to the words chosen, we start with the words’ plain
meaning. See id.; Cain v. Horne, 220 Ariz. 77, 80 ¶ 10
(2009). All agree that the term “relating to” is quite broad;
from that we can only properly infer that the framers
intended a broad scope. Thus, when we seek to apply a
“limiting principle,” we should do so in the manner most
consistent with the broad language chosen by the
amendment’s drafters. See Cain, 220 Ariz. at 80 ¶ 10; cf.
Johnson v. State ex rel. Dep’t of Transp., 224 Ariz. 554, 557
¶ 15 (2010) (citing with approval to another court’s rejection
of a narrow interpretation of Federal Rule of Evidence 407
because “this narrow interpretation ignores the literal
language of the rule” (internal quotation marks omitted)).
¶44
Instead, the majority construes the term “relating
to” in a narrow way that changes its meaning. The Court
holds today that “relating to” actually means “triggered
by” or a “prerequisite to,” supra ¶ 39, thereby substituting
constitutional text with what the majority determines its
authors meant to say. Even under that judiciallyconstructed rubric, revenues collected from the surcharge
here should be allocated to public highways and roadways.
And though the term “relating to” as used in the
anti-diversion clause is indeed elastic, a linear view of the
enactments at issue yields a more straightforward

App. 25
interpretation that does not necessitate rewriting
constitutional language.1
¶45
It is undisputed that the anti-diversion clause
emanated from Arizona’s desire to retain federal highway
funding. In the Hayden-Cartwright Amendment, Congress
mandated that tax revenues derived from the use or
operation of motor vehicles would be dedicated to highway
funding. Pub. L. No. 73-393, § 12, 48 Stat. 993, 995 (1934).
Then the voters approved article 9, section 14 of the
Arizona Constitution to effectuate that command. Many
years later, the legislature enacted the current surcharge
on rental car companies and allocated the funding to sports
authorities. Examining the relevant provisions of these
three enactments in close proximity is highly probative.
¶46
The pertinent provision of the Hayden-Cartwright
Amendment specifically notes that “it is unfair and unjust
to tax motor-vehicle transportation unless the proceeds of
such taxation are applied to the construction, improvement,
or maintenance of highways.” Hayden-Cartwright
Amendment § 12. Thus, the Amendment directs states
wishing to retain federal highway funding to restrict to
highway use revenues derived from
[s]tate motor vehicle registration fees, licenses,
gasoline taxes, and other special taxes on
motor-vehicle owners and operators of all kinds
....
Id. (emphasis added). The italicized words are illuminating,
as they contain language that is both limiting and broad.
1

I agree with the majority that the Plaintiffs’ principal assertion that
“relating to” means “connected to” is unpersuasive. See supra ¶ 28.

App. 26
¶47
First, the term “other special taxes” connotes
taxes—like registration fees, licenses, and gasoline
taxes—that are directed specifically to the use of motor
vehicles. The ejusdem generis canon supports this reading:
where a general term, such as “other special taxes,” follows
a list of specific terms, the general term should be
construed narrowly to “persons or things of the same
general nature or class” as the more specific terms. Estate
of Braden ex rel. Gabaldon v. State, 228 Ariz. 323, 326 ¶ 13
(2011) (quoting State v. Barnett, 142 Ariz. 592, 596 (1984)).
Consequently, “other special taxes” should be interpreted
narrowly to mean relating to the use of motor vehicles as
the terms that precede it are of this nature. Thus, the term
“special taxes” would not encompass general taxes that
included the use of motor vehicles but were not specially
directed toward them. The “special taxes” phrasing also
shows that the Hayden-Cartwright Amendment only
implicates taxes that are directed specifically to a particular
project rather than general taxes that go to the general
fund. Tax, Black’s Law Dictionary (10th ed. 2014) (defining
special tax as “[a] tax levied for a unique purpose”).
¶48
Second, the term “motor-vehicle owners and
operators of all kinds” is very broad, and thus is meant to
be inclusive, not exclusive. Given the statute’s stated
purpose, this provision suggests that it is the use of the
roads rather than hyper-technical legal distinctions among
motor-vehicle owners and operators that should govern the
statute’s applicability; the effect on the roads is the same
regardless.
¶49
In turn, Arizona voters implemented the
Hayden-Cartwright Amendment through the anti-diversion

App. 27
clause, article 9, section 14 of the Arizona Constitution,
which provides in relevant part:
No moneys derived from fees, excises, or license
taxes relating to registration, operation, or use of
vehicles on the public highways or streets . . . shall
be expended for other than highway and street
purposes . . . .
(Emphasis added.)
¶50
This provision should be read in pari materia with
the Hayden-Cartwright Amendment as the former
implements the requirements of the latter and thus each
deals with the same subject matter. See David C. v. Alexis
S., 240 Ariz. 53, 55 ¶ 9 (2016) (“Statutes that are in pari
materia—those of the same subject or general
purpose—should be read together and harmonized when
possible.”); Antonin Scalia & Bryan A. Garner, Reading
Law: The Interpretation of Legal Texts 252 (2012) (“Any
word or phrase that comes before a court for interpretation
is part of a whole statute, and its meaning is therefore
affected by other provisions of the same statute. It is also,
however, part of an entire corpus juris. . . . Hence laws
dealing with the same subject—being in pari materia . . .[,]
should if possible be interpreted harmoniously.”). Indeed,
if the constitutional provision did not fully and faithfully
follow the federal statute, Arizona would jeopardize federal
highway funds—and ironically, the Court’s decision today
may risk exactly that—which was precisely why it was
adopted. See Ariz. Sec’y of State, 1952 Publicity Pamphlet
5 (1952), http://azmemory.azlibrary.gov/digital/collection/st
atepubs%20/id/106 41 (“Why jeopardize federal aid by
allowing any diversion of road user taxes . . . ?” (emphasis
omitted)); id. at 4 (expressly referring to the Hayden-

App. 28
Cartwright Amendment); Saban Rent-A-Car LLC v. Ariz.
Dep’t of Revenue, 244 Ariz. 293, 299 ¶ 14 (App. 2018)
(stating the anti-diversion clause “was enacted in response
to federal legislation that conditioned grants of federal
highway funds on a state’s assurance that revenue ‘from
State motor-vehicle registration fees, licenses, gasoline
taxes, and other special taxes on motor-vehicle owners and
operators of all kinds’ would be used exclusively for
highway purposes” (quoting Hayden-Cartwright
Amendment § 12)). In that way, the Hayden-Cartwright
Amendment provides definition for the subsequent state
constitutional provision.
¶51
Therefore, viewed in this proper context, a tax is
“relating to” if it is specially directed at the operation or
use of vehicles on public highways. Similarly, the broad
terms “use” and “operation” are directed toward the
ultimate activity. Again, the text evinces no intent to
elevate form over substance—if the vehicles are used or
operated on public highways, then any fee or tax specially
directed toward that use implicates the anti-diversion
clause.
¶52
That leaves the question of whether the car rental
surcharge is such a fee or tax. Once again, we do not need
to travel beyond the statutory language itself, for it
furnishes the plain answer. A.R.S. § 5-839(C) states in
relevant part:
The surcharge applies to the business of leasing or
renting . . . motor vehicles for hire without a driver,
that are designed to operate on the streets and
highways of this state . . . .

App. 29
(Emphasis added.) The italicized language essentially
parallels the wording of the anti-diversion clause. The
surcharge’s plain language illustrates that it only applies
when someone rents a “motor vehicle[] . . . without a
driver, . . . designed to operate on the streets and highways
of this state”; as such, the taxable event is that the renter
of the motor vehicle will be driving it on the public roads.
¶53
A straight line can be drawn from the
Hayden-Cartwright Amendment to the anti-diversion
clause to the statute before us. The “limiting principle” that
the majority searches for at great length is supplied by the
relevant text of these provisions. The surcharge is a special
tax directed toward the use or operation of vehicles on
public roads, and the revenues it generates must be
allocated to public roads.
¶54
When the relevant constitutional and statutory
language resolves the dispute, as it does here, it is with
great hazard that we stray beyond it. State ex rel. Brnovich
v. City of Tucson, 242 Ariz. 588, 604 ¶ 67 (2017) (Bolick, J.,
concurring in part and in the result) (“We look first to the
language of the provision, for if the constitutional language
is clear, judicial construction is neither required nor
proper.” (quoting Perini Land & Dev. Co. v. Pima County,
170 Ariz. 380, 383 (1992))); accord, e.g., State v.
Winegardner, 243 Ariz. 482, 489 ¶ 29 (2018) (Lopez, J.,
dissenting in part and concurring in the result) (“In doing
so, we glossed over the Rule’s plain language to find a much
narrower meaning in its legislative history. But our
decisions repeatedly emphasize that we should apply plain
meaning before resorting to secondary interpretation
methods such as legislative history.”); Butler Law Firm,
PLC v. Higgins, 243 Ariz. 456, 459 ¶ 7 (2018); Brenda D. v.

App. 30
Dep’t of Child Safety, 243 Ariz. 437, 449 ¶ 45 (2018)
(Timmer, J., dissenting in part and concurring in part);
State v. Holle, 240 Ariz. 300, 302 ¶ 11 (2016).
¶55
The trial court employed a similar analysis and
reached the correct result, holding that “the class of taxable
transactions is defined by the relationship of those
transactions to the rental of cars. That the [surcharge]
relates to the use of vehicles on the public highways or
streets is plain. Its receipts may therefore be applied only
to one or more of the purposes set down by the
Constitution. The construction and maintenance of athletic
facilities [are] not among those purposes.”
¶56
Although we need (and should) not go beyond
constitutional and statutory text in resolving this case, this
analysis, unsurprisingly, also accords with the drafters’
stated intent. As the majority observes, the amendment’s
drafters admonished that the enactment would not alter
the then-current tax system. Supra ¶ 31. This reading is
consistent with that stated intent: general taxes that
affected motor vehicles among other goods or services
would be unaffected, while taxes and fees directly applied
to motor vehicles or their use or operation would be subject
to the amendment’s constraints.
¶57
The majority creates an exception to the
anti-diversion clause that defeats both its language and
intent. That the surcharge is assessed not directly on
individuals but on businesses, who pass it on to consumers,
is irrelevant in a constitutional provision that focuses on use
and operation of motor vehicles on public highways. Cf.
Maryland v. Louisiana, 451 U.S. 725, 737 (1981)
(concluding that consumers had standing because “the
Special Master proper[l]y determined that ‘although the

App. 31
tax is collected from the pipelines, it is really a burden on
consumers’”). More importantly, whether the tax is borne
by the owners (the rental car companies) or the operators
(vehicle renters) makes no difference from the perspective
of effectuating the requirements of the Hayden-Cartwright
Amendment, which expressly encompasses both.
¶58
Even so, clearly it is the vehicle renters, as vehicle
operators, and not the rental car companies that are the
ultimate object of the surcharge, as the arguments in favor
of adoption of the surcharge in the voter pamphlet
repeatedly emphasized. See, e.g., Ariz. Sec’y of State, 2000
Publicity Pamphlet Sample Ballot for the Tourism & Sports
Authority 10 (2000) [hereinafter
2000
Publicity
Pamphlet], https://ia601408.us.archive.org/31/items/PubPa
mp2000_201902/Pub%20Pamp%202000.pdf (“The tax
burden will fall primarily on visitors to the County.”); id. at
12 (“[V]isitors to the region, through a modest increase in
the cost of hotel and rental car use, will absorb a large
portion of the cost . . . .”); id. at 14 (“Finally, the financing
created by this proposition will be born[e] almost entirely
by the out of state visitors.”); id. at 16 (“But the best part
of the proposal is that it will cost Arizona residents next to
nothing. As much as 95% of the new hotel and car rental
taxes will be borne by visitors to our state.”); id. at 17 (“All
of these benefits to our communities can be provided with
the passage of Proposition 302 without increasing taxes
paid by local residents, and without negatively impacting
the car rental and hotel industries.” (emphasis added)).
The prescient forecast by those in favor of shifting the
burden of paying for AzSTA tourism projects to rental car
users themselves played out exactly as planned, as the trial
court found, which shows precisely why the surcharge
violates the anti-diversion clause. See supra ¶ 3 (noting the

App. 32
rental car companies pass the surcharge on to the vehicle
renters). The surcharge is imposed on rental car users for
their road use; thus, its revenues must be earmarked for
road use projects only. Because they are not, the
surcharge violates the anti-diversion clause.
¶59
The Court has created a loophole that allows the
legislature and those seeking its favor to divert funding
from highways to other purposes, without the pesky
inconvenience of constitutional amendment. For the
foregoing reasons, and with great respect to my colleagues,
I dissent on this issue.
Dormant Commerce Clause
¶60
I agree with my colleagues that the statute does not
violate the “dormant” Commerce Clause, as presently
construed by the U.S. Supreme Court.2 However, I find in
the record more evidence than my colleagues of an intent
to place the predominant economic burden of this tax on
out-of-state consumers, who after all are much more likely
to rent cars in Arizona for non-replacement purposes (for

2

The Commerce Clause effectuated one of the major purposes of our
federal constitution, which was to prevent parochial trade barriers
erected by states favoring their own domestic industries, thereby
ensuring to all the abundant benefits of free trade. Hughes v.
Oklahoma, 441 U.S. 322, 325–26 (1979). It did so by vesting in
Congress, rather than the states, the power to regulate interstate
commerce. This application of the Commerce Clause is far from
dormant, as wine-lovers, among others, can attest. Granholm v. Heald,
544 U.S. 460 (2005).

App. 33
which more-favorable terms apply on the statute’s face)
than Arizona residents.3 And, pertinent to the political
equation here, out-of-state visitors are unable to vote to
protect their economic interests, so they represent an
appealing revenue source.
¶61
“[A] tax may violate the Commerce Clause if it is
facially discriminatory, has a discriminatory intent, or has
the effect of unduly burdening interstate commerce.”
Amerada Hess Corp. v. Dir., Div. of Taxation, 490 U.S. 66,
75 (1989). In Commonwealth Edison Co. v. Montana, the
Court rejected a Commerce Clause claim against a facially
nondiscriminatory tax that disproportionately burdened
out-of-state businesses as the Court reasoned the tax was
related to activities and benefits taking place inside the
state. 453 U.S. 609, 618–29 (1981). By contrast, in Camps
Newfound/Owatonna, Inc. v. Town of Harrison, the Court
struck down a differential tax burden that “penalize[d] the
principally nonresident customers of businesses catering to
a primarily interstate market.” 520 U.S. 564, 576 (1997).
¶62
As a result, this question is very close. Plaintiffs
have argued this case as one of discriminatory intent, and
indeed the statute is facially nondiscriminatory and has
been applied in a nondiscriminatory way. The U.S.
Supreme Court has not invalidated state policies solely on
the basis of discriminatory intent. But cf. S.D. Farm
Bureau, Inc. v. Hazeltine, 340 F.3d 583, 593–96 (8th Cir.
3

One quote from the publicity pamphlet in particular sums it up with
admirable candor: “[T]he best part of the proposal is that it will cost
Arizona residents next to nothing. As much as 95% of the new hotel and
car rental taxes will be borne by visitors to our state.” 2000 Publicity
Pamphlet, supra, at 16; see also supra ¶ 58 (collecting quotes evincing
discriminatory intent).

App. 34
2003) (invalidating a constitutional amendment on the basis
of “discriminatory purpose”). Given the Supreme Court’s
conflicting precedents and that it has not yet provided
significant guidance on how to treat a Commerce Clause
claim based on discriminatory intent, I join the majority in
denying relief on that claim.

App. 35

APPENDIX B
IN THE
ARIZONA COURT OF APPEALS
DIVISION ONE
No. 1 CA-TX 16-0007
[Filed March 13, 2018]
_______________________________________________

)
SABAN RENT-A CAR LLC, et al.,
)
Plaintiffs/Appellees/Cross-Appellants,
)
)
v.
)
)
ARIZONA DEPARTMENT OF REVENUE,
)
Defendant/Appellant/Appellee/Cross-Appellee,
)
)
TOURISM AND SPORTS AUTHORITY,
)
Defendant-in-Intervention/Appellant/Cross-Appellee. )
_______________________________________________ )
Appeal from the Arizona Tax Court
No. TX2010-001089
The Honorable Dean M. Fink, Judge
The Honorable Christopher T. Whitten, Judge
AFFIRMED IN PART; REVERSED IN PART;
REMANDED

App. 36
COUNSEL
Mandel Young, PLC, Phoenix
By Taylor C. Young, Robert A. Mandel
Co-Counsel for Plaintiffs/Appellees/Cross-Appellants
Saban et al.
Kickham, Hanley, PLLC, Royal Oak, MI
By Gregory D. Hanley, pro hac vice
Co-Counsel for Plaintiffs/Appellees/Cross-Appellants
Saban et al.
Aiken, Schenk, Hawkins & Ricciardi, PC, Phoenix
By Shawn K. Aiken
Co-Counsel for Plaintiffs/Appellees/Cross-Appellants
Saban et al.
Arizona Attorney General’s Office, Phoenix
By Kimberly J. Cygan, Jerry A. Fries
Co-Counsel for Defendant/Appellant/Appellee/
Cross-Appellee ADOR
Osborn Maledon, PA, Phoenix
By Thomas L. Hudson, Eric M. Fraser
Co-Counsel for Defendant/Appellant/Appellee/
Cross-Appellee ADOR
Fennemore Craig, PC, Phoenix
By Timothy J. Berg, Theresa Dwyer, Emily Ayn Ward
Co-Counsel for Defendant-in-Intervention/Appellant/
Cross-Appellee AzSTA
Dickinson Wright, PLLC, Phoenix
By Scot L. Claus, Vail C. Cloar
Co-Counsel for Defendant-in-Intervention/Appellant/
Cross-Appellee AzSTA

App. 37
Lewis, Roca, Rothgerber, Christie, LLP, Phoenix
By Robert G. Schaffer
Counsel for amici curiae Halikowski and ADOT
Gammage & Burnham, PLC, Phoenix
By Michael R. King, Cameron C. Artigue,
Christopher L. Hering
Counsel for amici curiae Convention and Visitors Bureaus
Pima County Attorney’s Office, Tucson
By Regina L. Nassen
Counsel for amicus curiae Pima County
Gallagher & Kennedy, PA, Phoenix
By Michael K. Kennedy, Mark C. Dangerfield
Counsel for amicus curiae Arizona Chamber of Commerce
Perkins Coie, LLP, Phoenix
By Paul F. Eckstein, Thomas D. Ryerson
Counsel for amicus curiae City of Phoenix
OPINION
Judge Diane M. Johnsen delivered the opinion of the Court,
in which Presiding Judge Lawrence F. Winthrop and
Judge Maria Elena Cruz joined.
JOHNSEN, Judge:
¶1
A class of car-rental companies sued to invalidate a
surcharge enacted to build sports facilities to be owned by
the Arizona Tourism and Sports Authority (“AzSTA”). The
car-rental companies argued the surcharge is invalid both
under Article IX, Section 14 of the Arizona Constitution
and under the Dormant Commerce Clause implied by the
United States Constitution. The tax court ruled the
surcharge was invalid under the Arizona Constitution (but

App. 38
not under the Dormant Commerce Clause) and ordered a
refund.
¶2 For reasons explained below, we reverse the tax court’s
order granting summary judgment to the car-rental
companies under the Arizona Constitution and direct entry
of judgment in favor of the Arizona Department of Revenue
(“ADOR”) and AzSTA on that claim. We affirm the
judgment in favor of ADOR and AzSTA under the Dormant
Commerce Clause. Because we conclude the surcharge is
not invalid under either constitutional provision, we reverse
the tax court’s refund order.
FACTS AND PROCEDURAL BACKGROUND
¶3
AzSTA is a “corporate and political body” the
legislature created in 2000. Ariz. Rev. Stat. (“A.R.S.”)
§ 5-802 (2018).1 By statute, AzSTA’s “boundaries” are those
“of any county that has a population of more than two
million persons,” meaning (then and now) Maricopa
County. A.R.S. § 5-802(A). The legislature directed AzSTA
to build and operate a “[m]ultipurpose facility” — a
stadium/events center — that could accommodate a
professional football team, a college bowl game, and “other
sporting events and entertainment, cultural, civic, meeting,
trade show or convention events[.]” A.R.S. §§ 5-801(4)
(2018) (defining “multipurpose facility”), -804(A) (2018),
-807 (2018), -815 (2018) (powers of AzSTA). The legislature
also granted AzSTA the power to contract to host the
Super Bowl and college football national championship and
playoff games and to build Major League Baseball

1

Absent material revision after the relevant date, we cite the current
version of a statute or rule.

App. 39
spring-training facilities and youth and amateur sports and
recreational facilities. A.R.S. §§ 5-808 (2018), -809 (2018).
¶4
Although AzSTA may charge for use of its facilities,
it cannot levy taxes or assessments to build those facilities.
A.R.S. § 5-802(C). Instead, the legislature authorized
Maricopa County voters to approve taxes to fund AzSTA’s
construction projects. See id. Among the taxes the
legislature authorized voters to impose is the one
challenged here: A surcharge on the gross proceeds of
car-rental businesses. See A.R.S. § 5-839(B) (2018).
Maricopa County voters approved the car-rental surcharge
authorized by § 5-839 in November 2000, just months after
the legislature established AzSTA.2 As authorized, the
surcharge is the greater of 3.25 percent “of the gross
proceeds or gross income from the business” or $2.50 per
car rental, payable by the car-rental business, not the
customer. A.R.S. § 5-839(B)(1). If a customer rents a
vehicle as a “temporary replacement” for another vehicle,
the surcharge charged the car-rental company is a flat
$2.50. See A.R.S. § 5-839(B)(2).3
2

This court already has denied two challenges to the tax. In Long v.
Napolitano, 203 Ariz. 247, 251-53, ¶¶ 2-9 (App. 2002), we ruled that
§ 5-839 did not violate provisions of the Arizona Constitution unrelated
to the provision at issue in this case. See id. at 253, ¶¶ 10-11. In Karbal
v. ADOR, 215 Ariz. 114, 117, ¶ 11 (App. 2007), a car-rental customer
raised some of the same arguments made here against the surcharge,
but we ruled that the customer lacked standing because the surcharge
is imposed on the car-rental companies, not the customers.

3

The first $2.50 collected for each car-rental transaction goes to the
Maricopa County stadium district; the remaining revenues go to
AzSTA. See A.R.S. §§ 5-801(1), -839(G)(1), (2). The legislature also
authorized Maricopa County to tax hotels at up to 1 percent of room
sales to support AzSTA. A.R.S. § 5-840 (2018).

App. 40
¶5
In August 2009, Saban Rent-A-Car, Inc. sought a
refund of amounts it had paid under § 5-839, claiming the
surcharge violated Article IX, Section 14 of the Arizona
Constitution and the Dormant Commerce Clause implied
by the U.S. Constitution. After ADOR denied the refund
and that decision was upheld on administrative review,
Saban challenged the ruling in the tax court, seeking
injunctive relief and a refund on behalf of a class of all
similarly situated car-rental companies. The court granted
AzSTA leave to intervene as a defendant, then certified a
class of all businesses that paid the surcharge from
September 2005 through March 2008.
¶6
After discovery, the tax court ruled on cross-motions
for summary judgment that although the surcharge did not
violate the Dormant Commerce Clause, it was invalid under
Article IX, Section 14 of the Arizona Constitution. The
court ruled that ADOR would have to refund the tax to
class members but could recoup the amount of the refund,
over time, from AzSTA pursuant to A.R.S. § 42-5029(G)
(2018). The court granted ADOR’s motion for entry of
judgment pursuant to Arizona Rule of Civil Procedure
54(b), leaving the amount of the refund to be determined.
¶7
We have jurisdiction of the parties’ various appeals
and cross-appeal from the Rule 54(b) judgment pursuant to
Article VI, Section 9 of the Arizona Constitution and A.R.S.
§ 12-2101(A)(6) (2018). See Empress Beauty Supply, Inc. v.
Price, 116 Ariz. 34, 35 (App. 1977) (Rule 54(b) appropriate

App. 41
when “the only question remaining to be resolved is the
amount of recovery”) (quotations omitted).4
DISCUSSION
A. Standard of Review.
¶8
We review de novo the grant of a motion for
summary judgment. See Tierra Ranchos Homeowners
Ass’n v. Kitchukov, 216 Ariz. 195, 199, ¶ 15 (App. 2007).
Summary judgment is appropriate when “there is no
genuine dispute as to any material fact and the moving
party is entitled to judgment as a matter of law.” Ariz. R.
Civ. P. 56(a). Although a party ordinarily may not appeal an
order denying summary judgment, see, e.g., Fleitz v. Van
Westrienen, 114 Ariz. 246, 248 (App. 1977), the court of
appeals may review the denial of a motion for summary
judgment if the superior court denied the motion on a point
of law, Strojnik v. Gen. Ins. Co. of America, 201 Ariz. 430,
433, ¶ 11 (App. 2001).
B. Article IX, Section 14 of the Arizona Constitution.
¶9
In relevant part, Article IX, Section 14 of the
Arizona Constitution states:
No moneys derived from fees, excises, or license
taxes relating to registration, operation, or use of
vehicles on the public highways or streets or to fuels
or any other energy source used for the propulsion
of vehicles on the public highways or streets, shall
4

Empress Beauty Supply interpreted A.R.S. § 12-2101(G), which since
was renumbered to A.R.S. § 12-2101(A)(6) without substantial change.
See Empress Beauty Supply, 116 Ariz. at 35; H.B. 2645, 50th Leg., 1st
Reg. Sess., Ariz. Laws 2011, Ch. 304, § 1.

App. 42
be expended for other than highway and street
purposes . . . .
Under this provision, revenues collected from certain “fees,
excises, or license taxes” may be spent only for “highway
and street purposes.” ADOR and AzSTA concede the
surcharge authorized by A.R.S. § 5-839 is an excise tax. See
also Karbal v. ADOR, 215 Ariz. 114, 116, ¶¶ 9-10 (App.
2007). Therefore, if the surcharge is a tax “relating to
registration, operation, or use of vehicles on the public
highways or streets,” it violates Section 14 because its
proceeds are spent on sports and recreation facilities, not
highways and streets.
¶10
Relying on dictionary definitions, Saban argues the
phrase “relating to” in Section 14 broadly sweeps up any
tax “having connection with or reference to the operation
or use of vehicles on the public highways.” To be sure, the
phrase “relating to” is inherently indeterminate. See New
York State Conference of Blue Cross & Blue Shield Plans
v. Travelers Ins. Co., 514 U.S. 645, 655 (1995) (“If ‘relate to’
were taken to extend to the furthest stretch of its
indeterminacy, then for all practical purposes [its scope]
would never run its course, for ‘really, universally, relations
stop nowhere.’” (quoting H. James, Roderick Hudson xli
(New York ed., World’s Classics 1980)) (alteration in
original omitted)). For that reason, as Saban conceded at
oral argument, without some limiting principle, Section 14
would encompass not only the car-rental surcharge at issue
here but also a broad range of taxes that Arizona does not
now funnel to highways—including retail sales or business
privilege taxes on car sales, tire sales, car leases and car
repairs.

App. 43
¶11
Nevertheless, Saban cites Landon v. Indus.
Comm’n of Ariz., 240 Ariz. 21 (App. 2016), for the
proposition that we should look no farther than the
dictionary in interpreting the words”relating to” in Section
14. The issue in Landon was whether the discharge of an
injured employee fell within a provision of the Workers’
Compensation Act concerning workers “terminat[ed] from
employment for reasons that are unrelated to the industrial
injury.” Id. at 24, 25-26, ¶¶ 5-7, 15. We consulted
dictionaries for the plain meaning of “related,” namely
“connected” to or “associated” with. Id. at 26, ¶ 16 (citing
Black’s Law Dictionary (10th ed. 2014) and Webster’s II
New College Dictionary (3d ed. 2005)). But we also
considered the purpose of the legislation and applied
common principles of statutory construction, including the
rule that “when statutory provisions relate to the same
subject matter, they should be construed together and
reconciled whenever possible, in such a way so as to give
effect to all the statutes involved.” 240 Ariz. at 25, 26, ¶¶ 12,
17 (quotation omitted).
¶12
We must use these and other like principles to
discern whether Section 14 encompasses the car-rental
surcharge. See Travelers Ins., 514 U.S. at 656 (“We simply
must go beyond the unhelpful text and the frustrating
difficulty of defining its key term, and look instead to the
objectives [of the statute].”); RSP Architects, Ltd. v. Five
Star Dev. Resort Communities, LLC, 232 Ariz. 436, 438, ¶ 8
(App. 2013) (phrase “relating to” in Prompt Payment Act,
A.R.S. § 32-1129(A)(1) (2018), does not encompass every
relationship or connection with the referenced term:
“Common sense . . . tells us there must be some bounds to
the breadth of the statute.”). We look to the “context,
subject matter, effects and consequences, reason and spirit

App. 44
of the law” and try to construe it “in the context of related
provisions and in light of its place in the statutory scheme.”
RSP, 232 Ariz. at 438, ¶ 9; see Landon, 240 Ariz. at 26, ¶ 17.
And, in interpreting a voter-approved measure, we seek to
give effect to “‘the intent of the electorate that adopted it.’”
State v. Maestas, 242 Ariz. 194, 197, ¶ 11 (App. 2017)
(quoting Cave Creek Unified Sch. Dist. v. Ducey, 233 Ariz.
1, 6-7, ¶ 21 (2013)).
¶13
Applying those principles here, the broad
interpretation Saban urges would render multiple phrases
in the provision superfluous — a result that we must seek
to avoid. See RSP, 232 Ariz. at 439, ¶ 13. Section 14
expressly applies not only to excise taxes “relating to
registration, operation, or use of vehicles on the public
highways or streets” but also to such levies on “fuels or any
other energy source used for the propulsion of vehicles on
the public highways or streets.” Saban’s broad construction
of “relating to” would render the fuels provision irrelevant
because fuel used to propel a vehicle is related to use or
operation of a vehicle. The same is true with respect to
Section 14’s express reference to “registration.” A vehicle’s
registration is related to its use on public streets; one may
not legally drive a vehicle that is not registered. Because a
broad interpretation of “relating to” deprives these other
terms of any effect, the text of Section 14 itself reveals that
we should not construe “relating to” in its broadest possible
sense.
¶14
Turning to the purpose of the provision, Section 14
was enacted in response to federal legislation that
conditioned grants of federal highway funds on a state’s
assurance that revenue “from State motor vehicle
registration fees, licenses, gasoline taxes, and other special

App. 45
taxes on motor-vehicle owners and operators of all kinds”
would be used exclusively for highway purposes. H.R. 8781,
73rd Cong., Ch. 586, § 12, 48 Stat. 993, 995 (1934) (enacted).
In an official publicity pamphlet mailed before the 1952
election, at which Section 14 was approved, voters were
informed that 21 states had adopted similar
“anti-diversion” laws to ensure and preserve eligibility for
federal highway funds. See State of Ariz. Initiative &
Referendum Publicity Pamphlet, Proposed Amendment to
the Constitution at 4 (1952).5
¶15
Significantly, the pamphlet assured voters that
passage of Section 14 would “entail no change in the source
or expenditure of highway revenues.” But at the time,
Arizona already was collecting a statewide excise tax on
car-rental business revenues. That tax was enacted in
1935 — 17 years before voters enacted Section 14. See S.B.
118, 12th Leg., 1st Reg. Sess., Ariz. Laws 1935, Ch. 77, art.
2, § 2(f)(2) (encoded as Ariz. Code Ann. § 73-1303(f)(2)
(1939)) (subsequently encoded as A.R.S. § 42-1314 (1959),
H.B. 41, 24th Leg., 1st Reg. Sess., Ariz. Laws 1959, Ch. 11,
§ 1) (repealed by S.B. 1038, 27th Leg., 1st Reg. Sess., Ariz.
Laws 1985, Ch. 298, § 11); A.R.S. §§ 42-5008 (2018), -5071
(2018); see also Alvord v. State Tax Comm’n, 69 Ariz. 287,
289 (1950) (recounting history of Arizona’s business
5

Citing Phelps v. Firebird Raceway, Inc., 210 Ariz. 403 (2005), Saban
argues we may not use the voter pamphlet in interpreting Section 14.
But the majority in Phelps held the constitutional provision at issue
there was so plain it required no interpretation. Id. at 405, ¶ 10. We
may rely on voter pamphlets to determine the electorate’s intent when
necessary to resolve ambiguity. See, e.g., Calik v. Kongable, 195 Ariz.
496, 500-01, ¶¶ 17-19 (1999); Laos v. Arnold, 141 Ariz. 46, 47-48 (1984).
Such a pamphlet assists us in ascertaining an “interpretation . . .
consistent with the purpose” of the measure “as communicated to the
people of Arizona.” Cave Creek Unified Sch. Dist., 231 Ariz. at 351, ¶ 25.

App. 46
privilege tax on car-rental services). From the inception of
that statewide car-rental business tax, and at the time
Section 14 was adopted, proceeds from the tax were not
reserved for highway uses but went instead to the state’s
general fund. Ariz. Code Ann. § 73-1303 (1939) (providing
for tax for “the purpose of raising public money to be used
in liquidating the outstanding obligations of the state and
county governments” and “to aid in defraying the
necessary and ordinary expenses of the state and
counties”); see also Ariz. Code Ann. § 73-1303 (Supp. 1952)
(same). The pamphlet sent to voters in 1952 did not
mention the then-existing car-rental business tax, even
while telling voters of other existing taxes that would fall
within Section 14's scope: “[S]tate gasoline and diesel taxes,
registration fees, unladen weight fees on common and
contract motor carriers, and motor carrier taxes based on
gross receipts.”
¶16
Further, echoing the federal statute’s focus on
“motor-vehicle owners and operators,” the pamphlet told
voters that the purpose of the constitutional measure was
“to INSURE THE EXPENDITURE OF ALL
REVENUES DERIVED FROM ROAD USERS TO
ROAD USES ONLY.” Consistent with that focus on tax
collections from road users, Arizona puts into its Highway
Fund the proceeds of fees or taxes that must be paid in
order to legally drive on public roads — motor carrier
taxes, vehicle registration and in lieu fees and driver’s
license fees.6
6

According to information provided by amicus Arizona Department of
Transportation, the revenue sources of the Arizona Highway Fund for
each year since 2000 have been “Motor Vehicle Fuel Tax Revenues,”
“Motor Vehicle Registration Fee Revenues,” “Motor Carrier Tax
Revenues,” “Motor Vehicle Operators’ License Fees and Misc. Fees

App. 47
¶17
By contrast, as respects the surcharge at issue here,
the relationship between the business of renting vehicles
and the “operation, or use of vehicles on the public
highways or streets” (emphasis added) is attenuated in at
least two ways. First, the surcharge is not imposed on the
road user (the driver-customer), but instead is imposed on
the car-rental business, regardless of its own usage of
vehicles on public highways or streets (and regardless of
whether it chooses to pass along the surcharge to its
customers). Second, the taxable event that triggers the
surcharge is the rental of a vehicle, not its operation or use.
While most every car-rental transaction will result in the
customer using the car on public highways or streets, the
surcharge is imposed regardless of whether, how much or
how often the customer drives the car.
¶18
Ohio appellate courts have issued three decisions
addressing a nearly identical constitutional provision. See
generally State v. Curry, 97 Ariz. 191, 194-95 (1965)
(consulting decisions interpreting similar statutory
language in other states).7 In the first case, Ohio Trucking
Ass’n v. Charles, 983 N.E.2d 1262 (Ohio 2012), the state
supreme court considered whether its anti-diversion
and Revenues,” and “Motor Vehicle License (In Lieu) Tax Revenues.”
See Sources of Revenues Deposited in the Arizona Highway User
Revenue Fund and Arizona Highway Fund, Fiscal Year 2000 Through
Fiscal Year 2016 (July 13, 2016), https://www.azdot.gov/docs/defaultsource/businesslibraries/hurf-annual-disclosure-file-2016.pdf?s fvrsn=
10.
7

The Ohio Constitution provides that “[n]o moneys derived from fees,
excises, or license taxes relating to registration, operation, or use of
vehicles on public highways, or to fuels used for propelling such
vehicles, shall be expended for other than” highway and related
purposes. Ohio Const. art. XII, § 5a.

App. 48
constitutional provision applied to fees assessed on certified
abstracts of motor vehicle records. The court rejected a
strict plain-language approach to “relating to”:
At an extreme level, at the furthest stretch of its
indeterminacy, there is no doubt that fees for
certified abstracts are related to the registration of
vehicles on public highways. We are not convinced
that this extreme view of “relating to” is logical; we
know that it is not compelled by the language of [the
constitutional provision] or the objectives of the
amendment.
Id. at 1267, ¶ 15 (quotation omitted). The court concluded
that certified abstract fees were not sufficiently related to
“registration, operation, or use” of vehicles because the
abstract fees were “not necessary to the general motoring
public” and “not triggered by the registration, operation, or
use of a vehicle on the public highways.” Id. at 1267, ¶ 16
(emphasis added).
¶19
In another case decided a day later, the same court
held that a business tax on gross receipts from the sale of
motor-vehicle fuel fell within the scope of the constitutional
provision. Beaver Excavating Co. v. Testa, 983 N.E.2d
1317, 1319-20, ¶ 1 (Ohio 2012). The tax at issue there, like
the AzSTA surcharge, was a privilege tax paid by
businesses, not a tax paid directly by motorists. After
considering the words “relating to” “according to [their]
plain and ordinary meaning given in the context of political
discussions and arguments, in order to carry out the
intention and objectives of the people,” id. at 1325, ¶ 30
(quotation omitted), the court concluded that the “text and
history” of the provision showed it was intended to apply
“broadly” to business privilege taxes “derived from the

App. 49
sales of motor-vehicle fuel” — not solely to transactional
taxes imposed directly on fuel sales, id. at 1325-27, ¶¶ 30,
33-36.
¶20
Although Beaver Excavating supports Saban’s
position that the anti-diversion measure may encompass a
business privilege tax, the case says little about the
meaning of “relating to the registration, operation, or use
of motor vehicles.” The tax at issue there was imposed on
fuel, which Ohio and Arizona’s anti-diversion provisions
both explicitly mention in a separate clause without any
words of limitation. Further, whether framed as a business
tax or a sales tax, a tax on motor-vehicle fuel directly
relates to the operation or use of a motor vehicle.
¶21
The third Ohio case, Fowler v. Ohio Dep’t of Pub.
Safety, ___ N.E.3d ___, No. 16AP-867, 2017 WL 3263761 at
*6, ¶ 21 (Ohio Ct. App. Aug. 1, 2017), considered a “financial
responsibility reinstatement fee” imposed on motorists
ticketed for driving without insurance. The court concluded
the fee was not “related to” vehicle registration, operation
or use because it was not required of all motorists as a
prerequisite to driving, see id. at *5-*6, ¶¶ 18-19, and
because it was not “trigger[ed]” by registration, operation
or use of a vehicle but rather by a lack of insurance, id. at
*6, ¶ 19. The court acknowledged an undeniable
relationship between the fee and motor vehicle registration,
but found that relationship was “too attenuated” to fall
within the scope of the Ohio provision. See id.
¶22
Under the reasoning of these cases, an
anti-diversion provision applying to fees or taxes “relating
to . . . operation[] or use” of vehicles on public highways and
streets only encompasses fees and taxes generally imposed
on all who operate or use vehicles on public highways and

App. 50
streets, meaning fees or taxes that are a prerequisite to
legally operating or using a vehicle on a public
thoroughfare or that are triggered by operation or use of a
vehicle on a public thoroughfare.8
¶23
These general principles are reflected in the
categories of taxes the publicity pamphlet told Arizona
voters would be subject to Section 14, and those that voters
reasonably understood would not. All of the non-fuel
revenue sources the pamphlet stated would be encompassed
by the constitutional provision — “registration fees, unladen
weight fees on common and contract motor carriers, and
motor carrier taxes based on gross receipts” — are
prerequisites to the legal operation or use of a vehicle on a
public highway or are triggered by such operation or use of
a vehicle. See ¶ 16 supra. The surcharge authorized by
A.R.S. § 5-839 lacks any such nexus to operation or use of
a vehicle. Setting aside the fact that the surcharge is
imposed on car-rental businesses, not on car-rental
customers, it goes without saying that one need not rent a
vehicle to legally operate or use that vehicle on an Arizona
street; moreover, the surcharge is not triggered by
operation or use of a vehicle, but rather by a rental
transaction. Consistent with that conclusion, as stated, we
infer that when voters enacted Section 14 in 1952 knowing
8

Other out-of-state cases the parties cite are less helpful because the
anti-diversion provisions in those cases do not use the phrase “relate
to” or “relating to.” See Thrifty Rent-A-Car Sys., Inc. v. City & County
of Denver, 833 P.2d 852, 856 (Colo. App. 1992) (provision applied to
“proceeds from the imposition of any license, registration fee, or other
charge with respect to the operation of any motor vehicle upon any
public highway in this state”) (alteration omitted); Wittenberg v.
Mutton, 280 P.2d 359, 362 (Or. 1955) (provision applied to “proceeds
from any tax or excise levied on the ownership, operation or use of
motor vehicles”).

App. 51
that Arizona already imposed a statewide car-rental tax,
they understood that Section 14 would not constrain the
state’s use of the proceeds of that existing revenue source.9
¶24
Our analysis also is informed by the principle that
“statutes must be given a sensible construction which will
avoid absurd results.” Sherman v. City of Tempe, 202 Ariz.
339, 343, ¶ 18 (2002) (citing Sch. Dist. No. 3 of Maricopa
County v. Dailey, 106 Ariz. 124, 127 (1970)). Acknowledging
that Section 14’s reach is not limitless, Saban asserts we
should construe the provision so that it “reach[es] no
further than A.R.S. § 5-839.” That contention disregards
the duty of a court that is interpreting a legal provision to
strive to discern and apply sound principles of general
applicability in accordance with the intent of those who
enacted the provision. Saban offers no principled rule of
textual interpretation that would invalidate the surcharge
here without invalidating many other vehicle-related taxes
that Arizona never has earmarked for highway purposes —
including taxes on motor vehicle sales and leases, auto
repairs, sales of automobile-related equipment and parts,
and everything else that might be said to be “related to”
use of motor vehicles. Voters approved Section 14 more
9

Saban argues § 5-839(C) echoes the language of Section 14 in that it
authorizes a surcharge on the business of renting “motor vehicles . . .
that are designed to operate on the streets and highways of this state.”
Surely the lawmakers who enacted the statute did not intend the
surcharge to fall within Section 14 – its purpose is to fund AzSTA
facilities, not to benefit the Highway Fund. That being said, and
accepting that the car-rental surcharge applies only to the renting of
vehicles to be used on public thoroughfares, as stated above, the
surcharge is imposed not on the user of those public thoroughfares but
on the business that rents a vehicle to the user. Nor is it a tax that one
must pay to legally operate a vehicle on a public thoroughfare or that
is triggered by operation of a vehicle on a public thoroughfare.

App. 52
than 60 years ago. We cannot ignore that so far as we know,
at no time since then have they, the legislature or the
executive branch seriously suggested that the provision
might be or should be interpreted to sweep so broadly.
¶25
In sum, contrary to Saban’s contention, Section 14’s
text, context and history teach that the voters did not
intend it to encompass every tax or fee in any way “relating
to” vehicles. Instead, we conclude Section 14 applies to a
tax or fee that is a prerequisite to, or triggered by, the legal
operation or use of a vehicle on a public thoroughfare. By
that reasoning, we hold it does not apply to the surcharge
enacted pursuant to A.R.S. § 5-839.
C. The Dormant Commerce Clause.
1. General principles.
¶26
Saban cross-appeals the superior court’s rejection of
its challenge to the surcharge under the Dormant
Commerce Clause implied by the United States
Constitution. The Commerce Clause grants Congress the
power to “regulate Commerce . . . among the several
States.” Art. I, § 8, cl. 3. “[T]he Commerce Clause . . .
reflected a central concern of the Framers that[,] . . . in
order to succeed, the new Union would have to avoid the
tendencies toward economic Balkanization that had
plagued relations among the Colonies and later among the
States under the Articles of Confederation.” Hughes v.
Oklahoma, 441 U.S. 322, 325 (1979). Accordingly,
“[a]lthough the Clause is framed as a positive grant of
power to Congress, [the U.S. Supreme Court has]
‘consistently held this language to contain a further,
negative command, known as the dormant Commerce
Clause, prohibiting certain state taxation even when

App. 53
Congress has failed to legislate on the subject.’”
Comptroller of Treasury of Maryland v. Wynne, ___ U.S.
___, ___, 135 S. Ct. 1787, 1794 (2015) (quoting Oklahoma
Tax Comm’n v. Jefferson Lines, Inc., 514 U.S. 175, 179
(1995)). The concern of the Dormant Commerce Clause is
with “economic protectionism[,] that is, regulatory
measures designed to benefit in-state economic interests by
burdening out-of-state competitors.” Dep’t of Revenue of
Ky. v. Davis, 553 U.S. 328, 337-38 (2008) (quotation
omitted). Here, Saban argues the surcharge violates the
clause because it targets non-Arizona residents who rent
vehicles when they visit the state.
¶27
A threshold question under the Dormant Commerce
Clause is whether the activity alleged to be
unconstitutionally burdened is part of interstate commerce.
Interstate commerce includes the provision of goods or
services aimed primarily at out-of-state visitors. See Heart
of Atlanta Motel, Inc. v. United States, 379 U.S. 241, 256
(1964) (“transportation of passengers in interstate
commerce”); Exec. Town & Country Servs., Inc. v. City of
Atlanta, 789 F.2d 1523, 1525-26 (11th Cir. 1986) (limousine
business primarily used by airport patrons); Op. of Justices
to the House of Representatives, 702 N.E.2d 8, 12 (Mass.
1998) (car-rental business). Saban submitted evidence on
summary judgment that a significant majority of the
customers of class members Avis, Hertz and Budget —
87%, 72.3% and 80%, respectively — are out-of-state
residents. It does not matter, for purposes of the Dormant
Commerce Clause, that the surcharge is not imposed
directly on travelers from out of state, but rather is paid by
businesses whose revenues derive from transactions with
those travelers. See Camps Newfound/Owatonna, Inc. v.
Town of Harrison, Me., 520 U.S. 564, 580 (1997) (“no

App. 54
analytic difference” when “the discriminatory burden is
imposed on the out-of-state customer indirectly by means
of a tax on the entity transacting business with the
non-[resident] customer”); Heart of Atlanta, 379 U.S. at
258 (“[I]f it is interstate commerce that feels the pinch, it
does not matter how local the operation which applies the
squeeze.”) (citation omitted). Accordingly, the car-rental
business in Arizona is part of interstate commerce.
¶28
That being said, the Dormant Commerce Clause is
not violated whenever a state taxes a service primarily used
by non-residents. “It was not the purpose of the commerce
clause to relieve those engaged in interstate commerce
from their just share of state tax burden even though it
increases the cost of doing . . . business.” Western Live
Stock v. Bureau of Revenue, 303 U.S. 250, 254 (1938). Thus,
“interstate commerce may be made to pay its way.”
Complete Auto Transit, Inc. v. Brady, 430 U.S. 274, 281
(1977). A tax is not invalid if it “is applied to an activity
with a substantial nexus with the taxing State, is fairly
apportioned, does not discriminate against interstate
commerce, and is fairly related to the services provided by
the State.” Id. at 279.
¶29
As framed on appeal, the only question under
Complete Auto is whether A.R.S. § 5-839 impermissibly
discriminates against interstate commerce. See Complete
Auto, 430 U.S. at 279. In this context, “‘discrimination’
simply means differential treatment of in-state and out-ofstate economic interests that benefits the former and
burdens the latter.” Oregon Waste Sys., Inc. v. Dep’t of
Envtl. Quality of State of Or., 511 U.S. 93, 99 (1994). In that
inquiry, “a fundamental element . . . [is] the principle that
‘any notion of discrimination assumes a comparison of

App. 55
substantially similar entities.’” Davis, 553 U.S. at 342-43
(quoting United Haulers Ass’n, Inc. v. Oneida-Herkimer
Solid Waste Mgmt. Auth., 550 U.S. 330, 342 (2007) (quoting
Gen. Motors Corp. v. Tracy, 519 U.S. 278, 298 (1997))).
Thus, a law is discriminatory if it “impose[s] disparate
treatment on similarly situated in-state and out-of-state
interests.” Tracy, 519 U.S. at 298, n.12. Discriminatory laws
are almost always per se invalid; they may survive a
constitutional challenge only if they serve a legitimate local
interest other than economic protectionism and there is no
reasonable nondiscriminatory alternative. See Dean Milk
Co. v. City of Madison, Wis., 340 U.S. 349, 354 (1951).10
2. Facial discrimination.
¶30
Saban first argues the surcharge violates the
Dormant Commerce Clause because it discriminates on its
face against interstate commerce. “State laws
discriminating against interstate commerce on their face
are virtually per se invalid.” Camps Newfound, 520 U.S. at
575 (quoting Fulton Corp. v. Faulkner, 516 U.S. 325, 331
(1996)) (internal quotation omitted). But there is no
discrimination evident on the face of the surcharge or its
statutory authority, A.R.S. § 5-802: The tax is imposed on
all car-rental business revenues generated in Maricopa
County, whether or not they are derived from transactions
with customers who live in Arizona.
10

Per se discrimination is the only issue here. ADOR and AzSTA do not
contend the surcharge can survive if it is per se discriminatory; Saban
does not contend the surcharge is invalid under any lesser standard.
See Oregon Waste Sys., 511 U.S. at 99 (“nondiscriminatory regulations
that have only incidental effects on interstate commerce are valid
unless ‘the burden imposed on such commerce is clearly excessive in
relation to the putative local benefits’”) (quoting Pike v. Bruce Church,
Inc., 397 U.S. 137, 142 (1970)).

App. 56
¶31
Saban argues, however, that the surcharge falls
within what it calls a category of “facial
discrimination-by-proxy” decisions by the Supreme Court
that, according to Saban, “involve[] regulations that, while
not drawn explicitly along state lines, contained language
that either plainly was intended to serve as a neutral proxy
for that demarcation or that impelled the Supreme Court
to scrutinize the design or predictable effect of the tax
scheme.” But the two cases Saban cites both involve explicit
facial discrimination. In the first, Bacchus Imports, Ltd. v.
Dias, 468 U.S. 263 (1984), the Court struck down a Hawaii
tax on liquor sales. The text of the statute plainly
discriminated along state lines: It specifically exempted
“[o]kolehao manufactured in the State” and “fruit wine
manufactured in the State from products grown in the
State.” Matter of Bacchus Imports, Ltd., 656 P.2d 724, 726,
n.1 (Haw. 1982), rev’d sub nom. Bacchus Imports, Ltd. v.
Dias, 468 U.S. 263 (1984) (quoting Haw. Rev. Stat. § 244-4
(6), (7)) (emphasis added); see also Bacchus Imports, 468
U.S. at 265. In the second case, Camps Newfound, the
Court struck down a Maine tax exemption that excluded
charitable institutions “conducted or operated principally
for the benefit of persons who are not residents of Maine.”
520 U.S. at 568 (emphasis added). Neither case supports
Saban’s argument for “facial discrimination-by-proxy.”
3. Discriminatory effect.
¶32
Even when no discrimination is evident on the face
of a state provision, it may violate the Dormant Commerce
Clause if its effects discriminate against non-residents.
“The commerce clause forbids discrimination, whether
forthright or ingenious. In each case it is our duty to
determine whether the statute under attack, whatever its

App. 57
name may be, will in its practical operation work
discrimination against interstate commerce.” W. Lynn
Creamery, Inc. v. Healy, 512 U.S. 186, 201-02 (1994)
(quoting Best & Co. v. Maxwell, 311 U.S. 454, 455-56
(1940)). Saban argues the surcharge is discriminatory
because it falls disproportionately on out-of-state residents,
who make up the majority of car-rental customers in
Arizona.
¶33
Because three-quarters or more of the customers of
the plaintiff class are non-Arizona residents, it is
undeniable that, to the extent class members pass along the
surcharge to their customers, non-residents bear the main
burden of the surcharge. The Supreme Court, however, has
expressly rejected the notion “that a state tax must be
considered discriminatory for purposes of the Commerce
Clause if the tax burden is borne primarily by out-of-state
consumers.” Commonwealth Edison Co. v. Mont., 453 U.S.
609, 618-19 (1981). The issue is whether non-residents bear
a greater burden than similarly situated residents. See
CTS Corp. v. Dynamics Corp. of Am., 481 U.S. 69, 88
(1987); see also, e.g., Commonwealth Edison, 453 U.S. at
617-18 (Montana coal tax imposed on all customers at same
rate was permissible even though 90% of revenues were
collected from non-resident customers); Halliburton Oil
Well Cementing Co. v. Reily, 373 U.S. 64, 70 (1963)
(“[E]qual treatment for in-state and out-of-state taxpayers
similarly situated is the condition precedent for a valid use
tax on goods imported from out-of-state.”). Under this
analysis, the surcharge does not discriminate in its effect on
non-residents: It is imposed at the same rates on all
car-rental revenues, whether those revenues are generated

App. 58
from transactions with residents or transactions with
non-residents.11
¶34
Saban argues the surcharge here is not unlike the
tax struck down for its discriminatory effect in W. Lynn
Creamery, 512 U.S. 186. But the tax at issue there -- a
facially neutral tax imposed even-handedly on both in-state
and out-of-state milk producers -- burdened out-of-state
interests in a predictably disproportionate way because it
was coupled with a subsidy that effectively refunded the tax
to in-state milk producers, but not to out-of-state milk
producers. Id. at 199, n.16. Here, no subsidy or other like
measure reimburses an Arizona resident (or Arizona
car-rental company) for the surcharge when a resident
rents a car — a distinction that renders W. Lynn Creamery
inapposite.
¶35
By Saban’s reasoning, all taxes on goods and
services used primarily by out-of-state residents would be
suspect. But courts routinely uphold “tourism” taxes; as
long as such taxes do not distinguish between in-state and
out-of-state residents, it is irrelevant whether the overall
burden of the tax falls mostly on visitors to the state. See,
e.g., Youngblood v. State, 388 S.E.2d 671, 672, 673 (Ga.
1990) (hotel tax used to help finance domed stadium; law
“imposes an equal tax on residents of the state as well as
nonresidents”); Geja’s Cafe v. Metro. Pier & Exposition
Auth., 606 N.E.2d 1212, 1214, 1219-20 (Ill. 1992)
(restaurant tax); Second St. Properties, Inc. v. Fiscal Court
11

Saban contends the lower rate the surcharge imposes on revenues
from temporary-replacement rentals (i.e., cars rented on a short-term
basis to replace damaged or stolen cars) discriminates against
non-residents, who are less likely to rent replacement vehicles and
more likely to rent vehicles for vacations or other visits to Arizona.

App. 59
of Jefferson County, 445 S.W.2d 709, 711, 716 (Ky. 1969)
(hotel tax to fund tourist and convention commissions);
Hunter v. Warren County Bd. of Supervisors, 800 N.Y.S.2d
231, 233, 235 (App. Div. 2005) (tax on hotel room revenues);
Travelocity.com LP v. Wyo. Dep’t of Revenue, 329 P.3d
131, 151, ¶¶ 91-94 (Wyo. 2014) (same). By the same token,
the lower rate charged on revenues from temporaryreplacement rentals, which does not distinguish between
residents and non-residents, is similar to residency-neutral
exceptions in other tourism taxes that have been upheld.
See, e.g., Paustian v. Pa. Convention Ctr. Auth., 3 Pa. D. &
C.4th 16, 17, 20, 28-31 (Com. Pl. 1988), aff’d sub nom.
Paustian v. Pa. Convention Ctr. Auth., 561 A.2d 1337
(1989) (hotel tax exempted those renting a room for 30 days
or more; “the classification is rational and those within the
class are treated equally”).
¶36
In the end, although the car-rental surcharge falls
mostly on revenues generated by transactions with
non-Arizonans, that is true only because non-Arizonans
rent most of the cars. Saban has provided no evidence that
the surcharge has an impermissible discriminatory effect.
4. Discriminatory purpose.
¶37
Saban also argues the surcharge is invalid because
it purposefully discriminates against interstate commerce.
Citing Bacchus Imports, Saban contends that a
discriminatory purpose, by itself, may invalidate a law. See
468 U.S. at 270 (“Examination of the State’s purpose in this
case is sufficient to demonstrate the State’s lack of
entitlement to a more flexible approach permitting inquiry
into the balance between local benefits and the burden on
interstate commerce.”). As further support, Saban cites
Amerada Hess Corp. v. Director, Div. of Taxation, N.J.

App. 60
Dep’t of Treasury, 490 U.S. 66, 75-76 (1989), in which the
Court said of Bacchus Imports that “because the
exemption [in that case] was motivated by an intent to
confer a benefit upon local industry not granted to
out-of-state industry, the exemption was invalid.”
¶38
Notwithstanding the dictum in Amerada Hess,
however, the tax invalidated in Bacchus Imports expressly
discriminated on its face in favor of liquor produced in the
state. See ¶ 31 supra. And Saban cites no case in which the
Supreme Court has invalidated any measure on Dormant
Commerce Clause grounds solely based on discriminatory
intent. Nevertheless, some circuit courts of appeals have
concluded that discriminatory purpose alone may be a
sufficient ground on which to invalidate a measure under
the Dormant Commerce Clause. See, e.g., S.D. Farm
Bureau, Inc. v. Hazeltine, 340 F.3d 583, 594, 597 (8th Cir.
2003) (striking down voter-approved measure when
“pro-con” statement sent to voters before the election was
“brimming with protectionist rhetoric”); Waste Mgmt.
Holdings, Inc. v. Gilmore, 252 F.3d 316, 337, 338, 340 (4th
Cir. 2001) (bill’s sponsor stated it addressed “large volume
of out of state waste” coming into Virginia, and governor
declared the state “has no intention of becoming the
nation’s dumping grounds”); SDDS, Inc. v. S.D., 47 F.3d
263, 268, 272 (8th Cir. 1995) (ballot materials stated that
“South Dakota is not the nation’s dumping grounds”);
Alliance for Clean Coal v. Miller, 44 F.3d 591, 595 (7th Cir.
1995) (statute’s stated purpose was “the need to maintain
and preserve as a valuable State resource the mining of
coal in Illinois”).
¶39
If discriminatory purpose may be enough by itself to
invalidate a state tax under the Dormant Commerce

App. 61
Clause, the question is the nature and amount of the
evidence required to prove such purpose, issues as to which
the Supreme Court has not laid out clear guidance. See
Hazeltine, 340 F.3d at 596.12 In examining the evidentiary
basis for the “purpose” of a measure challenged on
equal-protection grounds, however, the Court has noted
that: (1) it will assume that a law’s stated purpose is its
actual purpose; (2) the proper inquiry is into the law’s
“principal purposes”; and (3) it “will not invalidate a state
statute . . . merely because some legislators sought to
obtain votes for the measure on the basis of its beneficial
side effects on state industry.” Minnesota v. Clover Leaf
Creamery Co., 449 U.S. 456 463, n.7, 471, n.15 (1981) (law
whose actual purpose is permissible is not invalid merely
because some legislators defended it with protectionist
rhetoric).
¶40
At issue in Clover Leaf Creamery was a state law
that banned the sale of milk in certain plastic containers.
Id. at 458. Although proponents argued the measure was
aimed at promoting conservation, the challengers
contended the real purpose of the law was to promote local
“dairy and pulpwood industries,” id. at 460, a contention
supported by a statement by the law’s chief legislative
proponent chiding a colleague for letting “the guys in the
12

“[T]he Supreme Court ‘never has articulated clear criteria for
deciding when proof of a discriminatory purpose and/or effect is
sufficient for a state or local law to be discriminatory. Indeed, the cases
in this area seem quite inconsistent.’” Puppies ‘N Love v. Phoenix, 116
F. Supp. 3d 971, 987 (D. Ariz. 2015) (quoting E. Chemerinsky,
Constitutional Law, Principles and Policies 444-45 (4th ed. 2011)),
superseded by statute, A.R.S. §§ 44-1799.10 to -1799.11 (2018), as
recognized and vacated by Puppies ‘N Love v. Phoenix, No.
CV-14-00073-PHX-DGC, 2017 WL 4679258, at *6 (D. Ariz. Oct. 18,
2017).

App. 62
alligator shoes from New York and Chicago come here and
tell you how to run your business,” Brief for Respondents,
Minnesota v. Clover Leaf Creamery Co., 449 U.S. 456
(1981), 1980 WL 339367 at *30 (cited in Clover Leaf
Creamery, 449 U.S. at 463, n.7). Another legislator
supporting the bill said:
I don’t think there is anything the matter with
supporting the timber industry which is our third
largest employer in the state. I think in fact that is
one of our responsibilities to keep a healthy
economy in the state rather than importing
petrochemicals and importing plastic bottles from
Chicago or wherever they are manufactured
certainly the natural resources aren’t from here.
Id. at 30-31.
¶41
The Supreme Court acknowledged these
statements, but nonetheless refused to invalidate the law
based on an improper protectionist purpose. The Court
remarked that the lawmakers’ protectionist statements
were “easily understood, in context, as economic defense of
an Act genuinely proposed for environmental reasons,”
Clover Leaf Creamery, 449 U.S. at 463, n.7, and concluded
that “the principal purposes of the [law] were to promote
conservation and ease solid waste disposal problems.” Id.
¶42
As noted, the Arizona legislature enacted A.R.S.
§ 5-839 in 2000. According to the evidence offered on
summary judgment and in the public record, the measure
was proposed by a gubernatorial task force based on a
report titled, “Arizona Tourism Retention and Promotion.”
According to the report, although the task force’s original
mission was to study how to pay for a new stadium to house

App. 63
the Arizona Cardinals and to maintain the Fiesta Bowl’s
“status as a ‘Top-Tier’ bowl,” after considering “additional
threats to the State’s tourism tax base,” the task force
broadened its mission “to include the protection and
promotion of Arizona’s tourism industry and Cactus
League[,] and directed that any capital finance plan to build
a stadium also include resources to promote tourism
retention.” The report asserted that a new stadium would
generate $800 million annually and that Arizona would not
be allowed to host another Super Bowl without a new
stadium. The report also stated that $200 million in annual
revenues generated by the Cactus League were at risk
because other warm-weather cities were offering new
spring-training facilities to lure Major League Baseball
teams away from Arizona. Pursuant to the Governor’s
reported directive “that the funding package minimize the
impact on the average Arizona resident,” the task force
estimated that under the legislation it proposed, 85-90% of
the car-rental and hotel assessments would be paid by
visitors to Arizona.
¶43
At the sole legislative committee hearing on the bill
that authorized AzSTA and its funding sources, members
of the Governor’s task force spoke on behalf of the
measure, as did representatives of the Arizona Cardinals,
the Fiesta Bowl and the Cactus League. The committee
also heard words of support from the Arizona Office of
Tourism, the Valley Hotel & Resort Association and from
a representative of Enterprise Leasing, a car-rental
company that has opted out of the present class action.
¶44
At the urging of a lawmaker who cited a desire to
minimize the bill’s “impact to residents,” a House
committee amended the proposed legislation to explicitly

App. 64
exempt vehicle rentals to Arizonans. See S.B. 1220, 44th
Leg., 2d Reg. Sess., Committee on Program Authorization
Review, Minutes of Meeting (March 9, 2000) page E-11
(considering S.B. 1220). Other committee members
opposed the exemption out of concern for its
constitutionality; one warned that “certain nonresidents
cannot be targeted.” Id. at E-12. Ultimately, the resident
exemption was stricken from the bill before it became law.
¶45
Notwithstanding Saban’s arguments to the contrary,
the statements recited above are even less probative of a
discriminatory purpose than the comments at issue in
Clover Leaf Creamery. The statements in that case were
made in support of the challenged law; the comments by
the Arizona lawmakers concerned an amendment — an
exemption for Arizona residents — that the legislature
ultimately rejected. We cannot conclude a statute that is
neither discriminatory on its face nor in its effect is
rendered unconstitutional simply because lawmakers
considered and dismissed a protectionist amendment at
some point in the legislative process. Nor is it proper to
impute protectionist intent to legislators who correctly
inform their peers of the constitutional limits to their
power. See also generally Julian Cyril Zebot, Awakening
A Sleeping Dog: An Examination of the Confusion in
Ascertaining Purposeful Discrimination Against
Interstate Commerce, 86 Minn. L. Rev. 1063, 1086 (2002)
(invalidating statute based on purported discriminatory
purpose when other legitimate purposes may exist “is a
direct affront to state sovereignty, for it fails to respect
legitimate state policymaking.”).
¶46
Saban also cites as evidence of discriminatory intent
a single sentence in the pamphlet sent to Maricopa County

App. 65
voters before the election on the surcharge. In the middle
of the second page of the 22-page pamphlet, voters were
told that “the surcharge on car rentals targets visitors to
the State (and includes an exemption for ‘replacement
vehicles’ for vehicles undergoing repair or similarly
unavailable on a temporary basis).” We often look to
election materials to discern the purpose of a
voter-approved law. See ¶ 14 supra. But the language
Saban cites is only one sentence in a lengthy document that
broadly describes the purposes of the surcharge -- to
promote tourism; to build a “multipurpose facility” for
professional football, college bowl games and other events,
including college basketball tournament games and trade
shows and concerts; to build and renovate Cactus League
facilities; and to develop youth and amateur sports and
recreational facilities. Guided by the Supreme Court’s
demonstrated reluctance to strike down a law based on
isolated statements evidencing protectionist motives, we
are not persuaded that the statement Saban cites proves
discriminatory intent sufficient to invalidate the surcharge.
¶47
In addition, Saban points to the Governor’s task
force report and comments by task force and AzSTA
members to the effect that the surcharge was created so
that visitors to Arizona would pay most of the cost of the
new AzSTA-owned facilities. Assuming for purposes of
argument that these non-legislative statements may bear
on the issue, they merely highlight that the facilities to be
built with the surcharge were intended to spur tourism and
its resulting positive effects on the Arizona economy. As
noted, proponents of AzSTA and the surcharge argued that
the new facilities would attract visitors to the state, who
would spend large amounts not only on rental cars but on
hotels, food and beverage and other recreational activities.

App. 66
Saban cites no authority for the notion that the Dormant
Commerce Clause is offended by a tax on tourism activities
when the proceeds of the tax are used to build facilities to
attract tourists.13 Because the car-rental surcharge funds
construction of facilities that benefit non-residents who visit
Arizona to attend events at those facilities, we are not
persuaded that the comments Saban cites are anything
other than legitimate discussion about whether services
those non-residents purchase should be taxed to fund those
facilities.
¶48
In sum, A.R.S. § 5-839 and the resulting car-rental
surcharge are not discriminatory on their face; nor do they
cause any discriminatory effects on interstate commerce.
Finally, assuming arguendo that a state tax that is
non-discriminatory on its face and in its effect may be
invalid solely based on a discriminatory purpose, Saban has
not demonstrated that the challenged surcharge has a
discriminatory purpose that violates the Dormant
Commerce Clause.

13

Nor does Saban argue that the surcharge is unconstitutional because
it is not fairly related to the promotion of tourism. See Complete Auto,
430 U.S. at 279. Saban repeatedly asserts that the surcharge was
designed to pay for a new stadium for the Arizona Cardinals,
suggesting that the proceeds of the surcharge have been spent
primarily for the benefit of local sports fans. It offered no evidence,
however, to support the proposition that (even apart from the
multiplier effect of tourism dollars on the state’s economy) the facilities
built by the surcharge benefit local sports fans more than the
out-of-state fans of professional and college football and Major League
Baseball, concert-goers, trade-show visitors and others who use those
facilities when they visit Arizona.

App. 67
CONCLUSION
¶49
We conclude that the car-rental surcharge
authorized under A.R.S. § 5-839 is not invalid under Article
IX, Section 14 of the Arizona Constitution, and reverse the
tax court’s ruling on summary judgment to the contrary,
including its award of attorney’s fees and costs. We affirm
the superior court’s ruling that the surcharge is not
unconstitutional under the Dormant Commerce Clause.
Accordingly, we vacate the superior court’s refund order,
direct entry of judgment in favor of ADOR and AzSTA and
remand for any further required proceedings consistent
with this decision.

AMY M. WOOD • Clerk of the Court
FILED: AA

App. 68

APPENDIX C
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
TX 2010-001089
[Filed June 17, 2014]
HONORABLE
DEAN M. FINK

CLERK OF THE COURT
S. Brown
Deputy

SABAN RENT-A-CAR L L C, SHAWN K AIKEN
et al.
v.
ARIZONA DEPARTMENT
OF REVENUE, et al.

KIMBERLY J CYGAN
TIMOTHY BERG
WILLIAM H KNIGHT
KEVIN M GREEN

UNDER ADVISEMENT RULING
Following oral argument on May 7, 2014, the Court took
Defendant and Defendant-Intervenor’s Motion for
Summary Judgment and Plaintiffs’ Cross-Motion for
Summary Judgment under advisement. Additionally,
following the oral argument on May 7, 2014, the Court has
read and considered Plaintiffs’ Supplemental Citation of
Legal Authorities Addressing Points Raised During Oral
Argument on May 7, 2014, Defendants’ Objections to

App. 69
Plaintiffs’ Supplemental Citation of Authorities filed May
13, 2014, and Plaintiffs’ Reply thereto filed May 27, 2014.
This matter involves a challenge to a tax as
unconstitutional under provisions of both the state and
federal constitutions.
The Court begins by determining how the Arizona
Sports and Tourism Authority (AzSTA) “tax,” which A.R.S.
§ 5-839(A) calls a “car rental surcharge,” is to be
categorized. Broadly, it is an excise tax. Gila Meat Co. v.
State, 35 Ariz. 194, 197 (1929); Arizona Farm Bureau
Federation v. Brewer, 226 Ariz. 16 ¶ 36 (App. 2010). More
specifically, the Court of Appeals described it as “akin to”
a transaction privilege tax, “more similar to [a] transaction
privilege tax[] than to [a] sales tax[].” Karbal v. Arizona
Dept. of Revenue, 215 Ariz. 114, 116 ¶ 9 and section A
heading (App. 2007). It is a tax on the business activity of
renting cars, id. at 116 ¶ 10. However, it is a tax of a very
peculiar kind, because, although the surcharge falls on the
business, the amount of the surcharge depends on the
customer’s reason for renting the car. A.R.S. § 5-839(B)(1)
sets the rate at 3¼ percent of the gross proceeds with a
$2.50 minimum; however, subsection 2 sets it at a fixed
$2.50 if the vehicle is intended as “a temporary replacement
motor vehicle” if the vehicle it is replacing is lost or under
repair. (Arithmetically, the rates diverge when the total
charge reaches approximately $77.00.) The Court is not
familiar with any other statute taxing the privilege of
conducting identical transactions differently based solely
on the customer’s reason for entering into them, which may
explain the equivocal language used by the Court of
Appeals. Karbal was decided on the narrow ground that the
plaintiff lacked standing, and did not examine whether the

App. 70
tax contravenes the Arizona Constitution or the Interstate
Commerce Clause. It also did not address whether, and if
so on what ground, the business may challenge the tax,
though it cited Oklahoma Tax Comm. v. Chickasaw
Nation, 515 U.S. 450, 461-62 (1995), to the effect that it
may.
There is some basis, both in the statutory text and in
the legislative history,1 for treating the AzSTA tax as an
amalgamation of two distinct taxes. Prior to its enactment,
there was a flat $2.50 tax on all car rental transactions, with
the proceeds going to the Maricopa County Stadium
District. A.R.S. § 5-839(G) preserves the Stadium District’s
entitlement to the first $2.50 of each rental, with the
remainder of the 3¼ percent surcharge distributed to
AzSTA. The official publicity pamphlet, at page 4, also
distinguished between the Stadium District and AzSTA
portions. The surcharge can therefore be seen as a $2.50
Stadium District tax on all car rental transactions and a 3¼
percent minus $2.50 AzSTA tax on car rental transactions
not involving temporary replacement. However, while this
may be conceptually neater – two taxes each at a fixed rate
with only one dependent on the customer’s motivation as
against one tax at a variable rate dependent on the
customer’s motivation – it does not affect the legal analysis,
and there is no statutory authorization to sever the AzSTA
portion from the Stadium District portion should that be
necessary.
“[T]he methodology whenever a right that the Arizona
Constitution guarantees is in question [is to] first consult
our constitution.” Mountain States Tel. & Tel. Co. v.
1

Voter pamphlets are relevant legislative history for measures enacted
by the people. Calik v. Kongable, 195 Ariz. 496, 500 ¶ 17-18 (1999).

App. 71
Arizona Corp. Comm., 160 Ariz. 350, 356 (1989). Article 9
§ 14 of the Arizona Constitution requires that “[n]o moneys
derived from fees, excises, or license taxes relating to
registration, operation, or use of vehicles on the public
highways or streets” be used for any but specified
highway-related purposes. As has been seen, the AzSTA
surcharge is an excise; Gila Meat, supra. The clause
therefore applies to it. The Department does not argue that
the rental of cars falls outside the scope of the
constitutional provision: not only does A.R.S. § 5-839(C)
limit the surcharge to “the business of leasing or renting
for less than one year motor vehicles for hire without a
driver, that are designed to operate on the streets and
highways of this state” (emphasis added), but obviously no
customer would go to the trouble and expense of renting a
car only to leave it in the parking lot. Instead, it argues
that, under Arizona law, the transaction privilege tax is
levied, not on the sale of a good or service, but on the
privilege of conducting such a sale. Arizona State Tax
Comm. v. Southwest Kenworth, Inc., 114 Ariz. 433, 436
(App. 1977). This argument fails for at least one and
perhaps two reasons. The Court of Appeals in Karbal,
supra at 116 ¶ 9, indicated that the AzSTA tax is neither a
true transaction privilege tax nor a true sales tax, though
more akin to the former; the general rule governing pure
transaction privilege taxes thus may not apply to it. Even
if it does, the Constitution restricts the use not only of taxes
on vehicles, but of taxes relating to vehicles. The Arizona
courts have not defined “relating to,” either generally or in
relation to this clause. But the constitutional language
plainly includes more than just a tax whose incidence falls
directly on the vehicle or its use. The required nexus
between the motor vehicle and the tax is that some
relationship exists to connect them. The case law holding

App. 72
that transaction privilege tax is a tax not on the underlying
sale but on the right to conduct the transaction does not
hold that the tax is unrelated to the underlying sale. Here,
indeed, the distinction falls apart: the class of taxable
transactions is defined by the relationship of those
transactions to the rental of cars. That the AzSTA tax
relates to the use of vehicles on the public highways or
streets is plain. Its receipts may therefore be applied only
to one or more of the purposes set down by the
Constitution. The construction and maintenance of athletic
facilities is not among those purposes.
Turning to the federal constitutional challenge, and
beginning with the standing of these plaintiffs to bring it
although the tax does not discriminate against them, the
Court begins with the proposition that an unconstitutional
tax is an illegal tax, and that its collection is consequently
illegal. A.R.S. § 42-11005(A) allows an action to recover an
illegally collected tax. Such a suit can be maintained only by
the taxpayer; that the customer does not pay a transaction
privilege tax was the rationale of Karbal, supra at 116-17
¶ 11. But the statute does not limit the taxpayer’s right to
recover to those taxes whose illegality is targeted at him
personally. The Department’s argument to the contrary
would create, where a tax is targeted at one group but
collected from another, a transaction privilege tax
exception to the commerce clause.2 On a more general
level, in Arizona law, standing may be found when there
exists a “distinct and palpable injury” to the plaintiff. Sears
2

Nor is it evident that the commerce clause is the only constitutional
provision that could be circumvented. To take one possible example, a
TPT on car rentals to racial minorities would surely be invalid under
the equal protection clause even if the rental company paying the tax
was not itself a racial minority.

App. 73
v. Hull, 192 Ariz. 65, 69 ¶ 16 (1998). There is enough in the
record to reach that threshold. In addition, standing can be
waived in exceptional circumstances. Such cases must be
ones involving issues of great public importance that are
likely to recur, id. at 71 ¶ 25, and in which the parties are
able to sharpen the legal issues presented, id. at 71 ¶ 24.
The Court has no hesitation in finding that the AzSTA
surcharge is indeed an issue of great public importance and
that the parties are fully capable of and motivated to
present the legal issues (as confirmed by the heft of their
briefing).
To determine the extent to which the surcharge
burdens customers from out of state over Arizona
customers, the Court ordered additional development of
the factual record. The results are, it must be said,
surprising. The Court’s initial impression was that the
replacement-vehicle exemption would work in a
discriminatory manner, favoring in-state residents over
out-of-state residents with no rational basis to do so. Were
that the case, the Court might very well have found the
surcharge to violate the federal constitution. But in
practice, the exemption from the surcharge does not seem
to have made a significant difference simply because the
car rental companies are charging the same rate to all
customers regardless of their reason for renting. As Mr.
Saban explained in his December 9, 2013 affidavit, the
burden of proof the Department has placed on the
companies is so onerous that to charge a customer the
lower replacement-car rate and then document his
entitlement to it would be prohibitively expensive. Thus,
the Court is faced with the reverse of the typical commerce
clause challenge: instead of a facially neutral tax being
discriminatory as applied, the tax here is, at least arguably,

App. 74
facially non-neutral but applied in a nondiscriminatory
manner.
The Court can find no support for the proposition that
discriminatory intent standing alone violates the commerce
clause. The Supreme Court has held that a finding of
economic protectionism can be made on the basis of either
discriminatory purpose or discriminatory effect. Bacchus
Imps., Ltd. v. Dias, 468 U.S. 263, 270 (1984). But the
surcharge is not protectionist in nature. It does not seek to
deter or impede interstate commerce; on the contrary, the
promise of palatial sports facilities can only be realized by
maximizing the amount that can be extracted from visitors
without keeping them away. Thus, the situation here differs
from that in South Dakota Farm Bureau, Inc. v. Hazeltine,
340 F.3d 583 (8th Cir. 2003) (striking down constitutional
provision excluding out-of-state corporations from owning
farms), and Waste Management Holdings, Inc. v. Gilmore,
252 F.3d 316 (4th Cir. 2001) (striking down statute
prohibiting importation of out-of-state garbage), both
dealing with laws protectionist in nature. The Commerce
Clause also prohibits taxing interstate commerce at a
disproportionate rate with a consequent lack of relationship
to services provided by the government. “A tailored tax,
however accomplished, must receive the careful scrutiny of
the courts to determine whether it produces a forbidden
effect on interstate commerce.” Complete Auto Transit,
Inc. v. Brady, 430 U.S. 274, 289 n.15 (1977). This language
does not suggest that a “tailored tax” is subject to strict
scrutiny regardless of whether it produces any effect, but
rather the opposite, that to invalidate such a law requires
proof of discriminatory effect. Due to the manner in which
the AzSTA surcharge is being applied in practice by the car
rental companies, the Court cannot find in it a commerce

App. 75
clause violation. It is true that the formal incidence of the
tax on the car rental companies rather than their customers
does not insulate the tax from the purview of the commerce
clause, provided that the customer pays indirectly. Camps
Newfound/Owatonna, Inc. v. Town of Harrison, Me., 520
U.S. 564, 580 (1997) (incidence of tax makes no analytic
difference). But the Supreme Court in that case expressly
found that the economic incidence of the tax fell at least in
part on the out-of-state customers. Id. Here, that simply
has not happened: the companies have imposed the same
tax on in-state and out-of-state renters, and on
replacement-car and non-replacement car, customers alike.
The economic incidence of the tax has fallen exclusively on
the car rental companies, and its incidence on them raises
no commerce clause issue. Perhaps recognizing the lack of
discriminatory effect created by the surcharge, Plaintiffs
belatedly raise a challenge to the tax on car rentals as a
whole: because most car renters are from out of state, a tax
on rental cars is discriminatory even without the
differential rate for replacement cars. This would raise an
entirely new issue requiring litigation from scratch. The
Court does not believe it is appropriate at this late date.
Nor does the Court find persuasive support for such an
argument in relevant case law.
Nevertheless, the Court finds that A.R.S. § 5-839
violates Article 9 § 14 of the Arizona Constitution, in that it
imposes an excise tax relating to registration, operation, or
use of vehicles on the public highways or streets whose
proceeds are applied to purposes not permitted by the
constitutional text.

App. 76
Accordingly,
IT IS ORDERED granting Plaintiffs’ Cross-Motion for
Summary Judgment.
IT IS FURTHER ORDERED denying Defendants’
Motion for Summary Judgment.
IT IS FURTHER ORDERED directing Plaintiffs to
lodge a form of judgment and file any Application and
Affidavit for Attorney’s Fees and Statement of Taxable
Costs by July 18, 2014.

App. 77

APPENDIX D
ARIZONA REVISED STATUTES
5-801. Definitions
In this chapter, unless the context otherwise requires:
1. “Authority” means the tourism and sports authority.
***
4. “Multipurpose facility” means any facility that is suitable
to be used to accommodate professional football franchises,
major college football bowl sponsors, other sporting events
and entertainment, cultural, civic, meeting, trade show or
convention events or activities and may include a stadium,
on-site infrastructure, parking garages and lots and related
commercial uses within the facility.
***
5-802. Formation of authority
A. The tourism and sports authority is established. The
boundaries of the authority are the boundaries of any
county that has a population of more than two million
persons.
***
C. The board of directors and the authority do not have the
power to levy or otherwise impose any tax or assessment,
other than charges for the use of facilities owned by the
authority. The qualified electors residing in the authority
may levy a tax or surcharge for the fiscal needs of the

App. 78
authority as provided by this chapter, but the board of
directors has no independent authority to impose or collect
a tax or assessment. Subject to that limitation, the
authority is considered to be a tax levying public
improvement district for the purposes of article XIII,
section 7, Constitution of Arizona.
***
5-807. Constructing and operating multipurpose facility
A. The authority shall construct, finance, furnish, maintain,
improve, operate, market and promote the use of a
multipurpose facility and do all things necessary or
convenient to accomplish those purposes. One or more site
hosts shall provide the land, infrastructure and parking
facilities associated with the multipurpose facility. The
authority shall own the multipurpose facility, subject only
to liens and other security interests of record. The
authority may own or lease the land on which the
multipurpose facility is located.
***
5-808. Major league baseball spring training facilities;
local financial participation
A. From monies in the cactus league promotion account
established by section 5-837, the authority may:
1. Acquire land or construct, finance, furnish, improve,
market or promote the use of existing or proposed
major league baseball spring training facilities that are
located in the authority and other structures, utilities,
roads, parking areas or buildings necessary for full use
of the training facilities for sports and other purposes.

App. 79
2. Do all things necessary or convenient to accomplish
those purposes.
B. Monies in the cactus league promotion account:
1. May be used for the purposes of:
(a) Attracting major league baseball spring training
operations to locations in the authority.
***
5-809. Community youth and amateur sports and
recreational facilities; local financial participation
A. From monies in the youth and amateur sports facilities
account established by section 5-838, the authority may:
1. Acquire land or construct, finance, furnish, maintain,
improve, operate, market or promote the use of
community youth and amateur sports facilities,
recreational facilities and other community facilities or
programs that are located in the authority.
2. Do all things necessary or convenient to accomplish
those purposes.
***
5-815. Intercollegiate football national championship
and playoff games
A. The authority shall enter into a special use agreement
for the sole purpose of hosting at the multipurpose facility
an intercollegiate football national championship game or
playoff games. The authority may only contract for this
purpose with a nonprofit community based organization

App. 80
that has extensive experience in operating or managing
intercollegiate football bowl games in this state.
***
5-839. Car rental surcharge
A. The qualified electors residing in the authority, by
majority vote at an election held in the authority, may levy
and, if levied, the department of revenue shall collect a car
rental surcharge beginning on the first day of the first
month beginning ninety days after the election to levy the
surcharge. The surcharge shall be in effect for three
hundred sixty months.
B. The rate of the surcharge is:
1. Three and one-fourth per cent of the gross proceeds
or gross income from the business or two dollars fifty
cents on each lease or rental, whichever is more.
2. In the case of a person who leases or rents the motor
vehicle as a temporary replacement motor vehicle, two
dollars fifty cents on each lease or rental. For the
purposes of this paragraph, “temporary replacement
motor vehicle” means a vehicle loaned by a motor
vehicle repair facility or dealer or rented by a person
temporarily to use while the vehicle that it is replacing
is not in use because of breakdown, repair, service,
damage or loss.
C. The surcharge applies to the business of leasing or
renting for less than one year motor vehicles for hire
without a driver, that are designed to operate on the streets
and highways of this state and that are primarily intended

App. 81
to carry not more than fourteen passengers, regardless of
whether the vehicle is registered or licensed in this state.
D. The surcharge does not apply to the lease or rental of a
motor vehicle:
1. To an automobile dealership, a repair facility, an
insurance company or any other person that provides
that vehicle at no charge to a person whose own motor
vehicle is being repaired, adjusted or serviced.
2. Used in an employee vanpool arrangement for a
group of at least seven but not more than fourteen
passengers including a driver who meets all of the
following conditions:
(a) The driver operates the motor vehicle for the
purpose of commuting between the driver’s
residence and place of employment.
(b) The driver operates the motor vehicle under a
prearranged schedule for transporting the
passengers between their residences and place of
employment.
(c) The driver’s operation of the motor vehicle is
voluntary and not required as a work responsibility
or condition of employment.
(d) The driver receives no compensation other than
free transportation between the driver’s residence
and place of employment, plus limited personal use
of the motor vehicle consisting of not more than
twenty per cent of the mileage use of the motor
vehicle for either:

App. 82
(i) Purposes other than transporting passengers
between their residences and place of
employment.
(ii) Travel between the passengers’ residences
and place of employment in which passengers
transported constitute less than one-half of the
adult seating capacity of the motor vehicle, not
including the driver.
E. The surcharge is not taxable under section 42-5071.
F. Unless the context otherwise requires, section 42-6102
governs the administration of a surcharge imposed under
this section, which shall be reported on a form prescribed
by the department of revenue. The department of revenue
shall require a report of the number of lease or rental
transactions and shall transmit that number to the state
treasurer.
G. Each month the state treasurer shall distribute revenues
collected pursuant to this section as follows:
1. Transmit an amount equal to two dollars fifty cents
on each lease or rental transaction to the county
stadium district established in the county in which the
authority is located pursuant to title 48, chapter 26 for
deposit in the county stadium district fund. The board
of directors of the county stadium district may pledge
all or part of these monies to secure district bonds or
financial obligations under title 48, chapter 26.
2. Pay the remainder of the monies collected during the
month to the authority for deposit in the tourism
revenue clearing account established by section 5-835.

